<html>
<title> - CLIMATE BENEFITS OF IMPROVED BUILDING ENERGY EFFICIENCY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
        CLIMATE BENEFITS OF IMPROVED BUILDING ENERGY EFFICIENCY
=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND AIR QUALITY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 17, 2008

                               __________

                           Serial No. 110-136


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]





                    U.S. GOVERNMENT PRINTING OFFICE
57-974 PDF                    WASHINGTON: 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0364736c43607670776b666f732d606c6e2d">[email&#160;protected]</a>  







                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            BARBARA CUBIN, Wyoming
BART STUPAK, Michigan                JOHN SHIMKUS, Illinois
ELIOT L. ENGEL, New York             HEATHER WILSON, New Mexico
GENE GREEN, Texas                    JOHN SHADEGG, Arizona
DIANA DeGETTE, Colorado              CHARLES W. ``CHIP'' PICKERING, 
    Vice Chairman                    Mississippi
LOIS CAPPS, California               VITO FOSSELLA, New York
MIKE DOYLE, Pennsylvania             ROY BLUNT, Missouri
JANE HARMAN, California              STEVE BUYER, Indiana
TOM ALLEN, Maine                     GEORGE RADANOVICH, California
JAN SCHAKOWSKY, Illinois             JOSEPH R. PITTS, Pennsylvania
HILDA L. SOLIS, California           MARY BONO MACK, California
CHARLES A. GONZALEZ, Texas           GREG WALDEN, Oregon
JAY INSLEE, Washington               LEE TERRY, Nebraska
TAMMY BALDWIN, Wisconsin             MIKE FERGUSON, New Jersey
MIKE ROSS, Arkansas                  MIKE ROGERS, Michigan
DARLENE HOOLEY, Oregon               SUE WILKINS MYRICK, North Carolina
ANTHONY D. WEINER, New York          JOHN SULLIVAN, Oklahoma
JIM MATHESON, Utah                   TIM MURPHY, Pennsylvania
G.K. BUTTERFIELD, North Carolina     MICHAEL C. BURGESS, Texas
CHARLIE MELANCON, Louisiana          MARSHA BLACKBURN, Tennessee
JOHN BARROW, Georgia
DORIS O. MATSUI, California

                                 ______

                           Professional Staff

                 Dennis B. Fitzgibbons, Chief of Staff

                   Gregg A. Rothschild, Chief Counsel

                      Sharon E. Davis, Chief Clerk

                 Bud Albright, Minority Staff Director

                                  (ii)
                 Subcommittee on Energy and Air Quality

                    RICK BOUCHER, Virginia, Chairman
G.K. BUTTERFIELD, North Carolina,    FRED UPTON, Michigan
    Vice Chairman                         Ranking Member
CHARLIE MELANCON, Louisiana          RALPH M. HALL, Texas
JOHN BARROW, Georgia                 ED WHITFIELD, Kentucky
HENRY A. WAXMAN, California          JOHN SHIMKUS, Illinois
EDWARD J. MARKEY, Massachusetts      JOHN B. SHADEGG, Arizona
ALBERT R. WYNN, Maryland             CHARLES W. ``CHIP'' PICKERING, 
MIKE DOYLE, Pennsylvania                 Mississippi
JANE HARMAN, California              ROY BLUNT, Missouri
TOM ALLEN, Maine                     MARY BONO MACK, California
CHARLES A. GONZALEZ, Texas           GREG WALDEN, Oregon
JAY INSLEE, Washington               MIKE ROGERS, Michigan
TAMMY BALDWIN, Wisconsin             SUE WILKINS MYRICK, North Carolina
MIKE ROSS, Arkansas                  JOHN SULLIVAN, Oklahoma
DARLENE HOOLEY, Oregon               MICHAEL C. BURGESS, Texas
ANTHONY D. WEINER, New York          MARSHA BLACKBURN, Tennessee
JIM MATHESON, Utah                   JOE BARTON, Texas (ex officio)
DORIS O. MATSUI, California
JOHN D. DINGELL, Michigan (ex 
    officio)
                                 ------                                

                           Professional Staff

                     Sue D. Sheridan, Chief Counsel
                        John W. Jimison, Counsel
                   Rachel Bleshman, Legislative Clerk
                    David McCarthy, Minority Counsel
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Rick Boucher, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     1
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     2
Hon. Doris Matsui, a Representative in Congress from the State of 
  California, opening statement..................................     3
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     4
Hon. John Barrow, a Representative in Congress from the State of 
  Georgia, opening statement.....................................     6
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................   137
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, prepared statement.........................   137

                               Witnesses

David Rodgers, Deputy Assistant Secretary for Energy Efficiency, 
  Department of Energy...........................................     8
    Prepared statement...........................................
    Answers to submitted questions...............................   143
Brian J. McLean, Director, Office of Atmospheric Programs, 
  Environmental Protection Agency................................     9
    Prepared statement...........................................    11
    Answers to submitted questions...............................   156
Marshall E. Purnell, FAIA, President, American Institute of 
  Architects.....................................................    31
    Prepared statement...........................................    33
    Answers to submitted questions...............................   162
Matt Belcher, Owner, Belcher Homes LLC, on behalf of the National 
  Association of Home Builders...................................    47
    Prepared statement...........................................    49
    Answers to submitted questions...............................   167
Thomas A. Gentry, Assistant Professor, School of Architecture, 
  University of North Carolina at Charlotte......................    71
    Prepared statement...........................................    74
    Answers to submitted questions...............................   176
Richard P. Weiland, Chief Executive Officer, International Code 
  Council........................................................    82
    Prepared statement...........................................    84
William D. Fay, Director, Energy Efficient Codes Coalition.......    87
    Prepared statement...........................................    89
    Answers to submitted questions...............................   179
Brad Heavner, State Director, Environment Maryland...............   104
    Prepared statement...........................................   106
    Answers to submitted questions...............................   183

                           Submitted Material

U.S. Green Building Council, letter of July 17, 2008 to Chairman 
  Boucher, submitted by Mr. Inslee...............................   138
Insert for the record, submitted by David Rodgers................   140
AGC Flat Glass North America and Pilkington North America, letter 
  of July 16, 2008 to Hon. Mike Rogers, submitted by Mr. Boucher.   141

 
        CLIMATE BENEFITS OF IMPROVED BUILDING ENERGY EFFICIENCY

                              ----------                              


                         TUESDAY, JULY 17, 2008

                  House of Representatives,
            Subcommittee on Energy and Air Quality,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Rick 
Boucher (chairman) presiding.
    Members present: Representatives Boucher, Barrow, Inslee, 
Matheson, Matsui, Upton, Shadegg, Walden, and Burgess.
    Staff present: John Jimison, Laura Vaught, Chris Treanor, 
Rachel Bleshman, Erin Bzymek, and Mills Forni.

  OPENING STATEMENT OF HON. RICK BOUCHER, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Boucher. The subcommittee will come to order. In the 
next Congress, this subcommittee will initiate legislation to 
reduce greenhouse gas emissions between 60 and 80 percent by 
the year 2050. A portion of that goal we intend to meet through 
a cap-and-trade regulation on large-scale stationary sources 
and on transportation. But to achieve the goal fully, other 
steps will also be required.
    Last year's energy law began that process with a landmark 
measure to enhance the efficiency of a broad range of household 
appliances. It also encourages a smart electricity grid and a 
capture of waste heat from industry. By 2030, last year's law 
will reduce greenhouse gas emissions by that year through a 
cumulative total of 10.6 billion tons. And in that year alone, 
the annual reduction will be 700 billion tons, equal to about 
one-half of the emissions of all of the vehicles on America's 
roads today. So it truly was a landmark efficiency measure.
    Another key step will be making America's buildings more 
efficient. The energy they consume accounts for approximately 
40 percent of total U.S. greenhouse gas emissions. Some experts 
believe that it would be possible to apply affordable solutions 
to reduce CO<INF>2</INF> emissions attributable to our Nation's 
buildings by more than 60 to 80 percent by the year 2050, 
suggesting that achieving those efficiencies will have to be a 
key ingredient in our overall greenhouse gas reduction 
strategy.
    These may be among the least expensive reductions that we 
achieve. It is estimated that new building efficiencies cost 
approximately 3 cents per kilowatt hour to install, while the 
consumption of energy is at best 5 cents per kilowatt and 
typically somewhat higher. These savings are effective 
immediately with no lead time. They are permanent. They are 
free of environmental negatives, and they are not attended by 
the large infrastructure cost that new electricity generation 
requires. They deliver their full benefit, unlike new 
electricity generation which, on average, delivers about 30 
percent of the fuel input as usable energy.
    These realities suggest that making buildings more 
efficient is truly the low-hanging fruit in the CO<INF>2</INF> 
reduction effort. Last year this committee passed and this 
committee proposed and the House passed section 431 to present 
to the States a new recommended building code to advance the 
efficiency of energy use in buildings.
    That section was deleted because of Senate action and was 
therefore not a part of the bill that was signed into law by 
the President in December. The provision would have left to the 
States the ultimate decision regarding whether to adopt the 
recommended building code, but financial assistance was offered 
through that provision to the States that decided to do so. The 
debate on that provision will emerge again next year, and it 
will be a topic of our discussion this morning.
    Also emerging next year will be proposals to enhance 
weatherization assistance and making more stringent the 
standards for the Energy Star Program for buildings.
    Today's witnesses will comment on these and other 
approaches that we should consider taking to advance building 
efficiency, and by doing so also advance our overall goal of 
reducing greenhouse gas emissions. I want to welcome our 
witnesses and thank them for taking time with us this morning.
    Mr. Boucher. And I am now pleased to recognize the ranking 
member of this subcommittee, the gentleman from Michigan, Mr. 
Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman. Our hearing today 
on energy efficient building standards is yet another on our 
long list of climate change hearings. And before I begin, I 
would like to submit a letter from the Advanced Building 
Coalition for the record. I agree with the Advanced Building 
Coalition that energy conservation measures are important, but 
they must take into account safety, must be cost effective, and 
should not promote an anti-competitive marketplace.
    Pilkington North America, a member of the coalition, has a 
facility in my district where they recently added 100 new jobs. 
As I have said many times during these hearings, I support 
reducing greenhouse gas emissions, but it must be in a way that 
protects our economy, jobs, and energy security. And if done 
correctly, increasing the energy efficiency of buildings will 
in fact reduce energy costs for consumers, help the 
environment, and have a positive economic impact. And these 
benefits can be gained without necessarily a cap-and-trade 
program.
    According to recent estimates, buildings consume 40 percent 
of the energy used in the United States. And I don't think it 
will be any dispute today that by improving the energy 
efficiency of buildings, we can, in fact, save energy and 
reduce greenhouse gas emissions.
    The question is what should the Federal Government's role 
be to create the incentives for more efficient buildings? In my 
district, public and private sector entities alike are turning 
towards architectural designs and technologies that are both 
environmentally sensitive and economically sensible.
    Earlier this month, the new radiology center opened in 
downtown Kalamazoo, emerging as the first health care facility 
in southwest Michigan to seek LEED certification.
    The benefits of green construction have also been 
recognized by educational institutions at the primary, 
secondary, and university levels. For example, public schools 
in the village of Madawan in my district have earned the EPA's 
prestigious Energy Star rating, the national symbol for 
protecting the environment through superior energy efficiency. 
And this designation reflects the fact that Madawan schools are 
now using 20 to 30 percent less energy than the average public 
building, all the while continuing to provide a very good 
quality education in a comfortable living environment. 
Additionally the schools have lowered the energy cost by nearly 
25 percent, allowing funding to be reallocated to other 
valuable school resources.
    In addition, Western Michigan University has seen 
substantial reductions in energy use, saving annually about 
$250,000 because of what they have done on light bulbs as well 
as different electrical designs where they can actually monitor 
heat and cooling in all of the university's some 54 buildings.
    These energy efficiency buildings in my district would not 
achieve the same energy savings if they were built to the same 
specs as in Texas, Florida, or even in Virginia. Building codes 
are best determined at the local level and should not be 
determined, I don't think, by the Federal Government. Buildings 
are designed to a specific location, thus this is not an area 
where uniform national standards will necessarily pay off. Each 
State and region has different needs. Our national policies 
need to reflect that. And, Mr. Chairman, I yield back the 
balance of my time.
    Mr. Boucher. Thank you very much, Mr. Upton. The gentlelady 
from California, Ms. Matsui, is recognized for 3 minutes.

  OPENING STATEMENT OF HON. DORIS MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Mr. Chairman. I am very pleased to 
be here today, and thank you for calling this hearing. I would 
also like to thank today's panelists. The expertise you share 
will us will be useful throughout the Committee's process in 
crafting thoughtful legislation.
    Improved energy efficiency will be an essential element of 
any climate change solution. Buildings in our country are 
responsible for more greenhouse gas emissions than any other 
sector. Heating, cooling, and lighting our buildings as well as 
powering our appliances requires vast amounts of energy.
    But thankfully, we currently possess the technology and 
knowledge needed to address nearly a quarter of our Nation's 
carbon emissions. My district of Sacramento, California has 
been a leader in adopting green building practices.
    We have the first ``Leadership in Energy and Environmental 
Design'' platinum certified office building in the country and 
the second most LEED certified square footage of any city. We 
have a growing number of solar and energy efficient homes and a 
wide variety of efficiency initiatives which are making 
Sacramento a clean and efficient energy laboratory.
    Furthermore, federal programs such as Energy Star and 
Building America are expanding technologies and giving us 
concrete ways to confront climate change. Non-governmental 
organizations like the U.S. Green Building Council are also 
providing necessary savings to consumer choice and market 
leadership.
    I recently introduced a measure to assist homeowners across 
the country with energy efficient landscaping practices. Even 
changing something as simple as how our buildings get sunlight 
can make a big difference in how much energy they consume.
    I am eager to hear what our panelists can tell us about 
approaches they are taking and approaches this committee can 
take to improve building efficiency and address climate change 
beyond simply cutting carbon, building green cuts consumer 
costs, increasing a building's value and improve the health and 
well-being of the occupants.
    I look forward to working with my colleagues on this 
subcommittee to examine and promote energy efficiency or 
helping our constituents to do the same. By saving people money 
and reducing our carbon emissions, energy efficiency is truly a 
win-win proposition.
    Once again, I thank you, Mr. Chairman, for highlighting 
this important issue, and I yield back the balance of my time.
    Mr. Boucher. Thank you very much, Ms. Matsui. The gentleman 
from Texas, Mr. Burgess, is recognized for 3 minutes.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Mr. Chairman. Every year I try to 
do an energy efficiency and conservation summit in my district, 
and earlier this month we did it in Denton, Texas. I try to 
hold it to highlight some of the proactive steps that citizens 
can take to conserve energy and ultimately save money. It is 
very difficult for the average citizen to have much of an 
impact on what to do about speculation, or what to do about 
drilling in the Outer Continental Shelf. But, they certainly 
can affect the energy that they use and thus affect that end of 
the supply/demand equation.
    At this year's event, we were very grateful to have a 
representative from the Department of Energy, the Renewable 
Energy Undersecretary at the event. At this year's event, we 
had a panel of commercial residential building experts and they 
discussed a lot of the topics that we are going to hear about 
today. And several expressed the importance, or stressed the 
importance, of having the air conditioning designed for the 
house. That is, the right size air conditioner for the home. 
And inspecting ducts and intakes for leaks came up several 
times as being one of the most, probably one of the most 
important things a homeowner can do. And, quite honestly, you 
get 200 people to show up at 9:00 on a Saturday morning early 
in July in Denton, Texas, that shows the thirst and the hunger 
for this type of information that exists in the minds of 
American families.
    Saving energy is not equal to adding additional energy, and 
until we can produce more energy or find adequate alternatives, 
it is to our advantage to make sometimes very simple personal 
choices to conserve energy and save hard-earned dollars. 
Certainly I try to do that in my own life.
    I have a hybrid car. My wife, who is an architect, when we 
built a house a couple of years ago, I said, ``well, I want 
solar panels and windmills and want to live off the grid.'' And 
she said, ``well, why don't we do things that are basically a 
little more mainstream so the house will actually have some 
resale value?''
    So doing things like Energy Star appliances, the low E 
glass, foam insulation in the walls, high efficiency air 
conditioning units, the efficient attic system, which in Texas 
is so important because that attic air can get up to about 190 
degrees by 9:00 in the morning. A tankless hot water heater, 
which I would have never considered as being as big an energy 
saver as it was.
    Our energy bills the year that we moved into that house, 
which was 2 years ago in a very hot summer in Texas, our energy 
bills were about half of what they were the summer before. So 
it was very dramatic to me that with relatively modest changes 
in building techniques, big benefits can occur. So personal 
choices are an important part of energy efficiency because 
mandates are restrictive. Mandates are expensive, and mandates, 
because they limit our freedom, are not things that we should 
encourage in a free society.
    The people in my district are still talking about 
eventually losing the right to purchase inexpensive, mercury-
free incandescent light bulbs. And, yes, I do have two light 
bulbs with Chinese mercury in my home, and I use them very 
sparingly.
    I support energy conservation and the technology that 
regulates energy when it is not needed, but I am hesitant to 
support--what works in Texas may not work in Massachusetts and 
vice versa. So federally mandated building standards I am going 
to approach very, very carefully.
    When this subcommittee discussed regional appliance 
standards, we discussed the wide range of consumer preferences 
and the needs around the country. Because we do have a diverse 
climate full of building preferences and choices, a federal 
building standard would be difficult and intrusive to 
implement, costly to inspect, and would add an extra burden to 
residential and commercial construction in an industry that, 
quite honestly, right now is facing significant hardship.
    So I believe the local government in cities in my district 
are more than capable of establishing their own building 
standards. And really that is where I think the true value in 
establishing standards but making them available at the local 
level and then letting the local standards be enforced and 
propagated are really likely to lead to much more value. Thank 
you, Mr. Chairman. I will yield back the balance of my time.
    Mr. Boucher. Thank you very much, Mr. Burgess. The 
gentleman from Georgia, Mr. Barrow, is recognized for 3 
minutes.

  OPENING STATEMENT OF HON. JOHN BARROW, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Barrow. Thank you, Mr. Chairman, and thank you for 
calling this hearing. You know probably the hardest thing in 
the world is to try and persuade folks to spend a little bit 
more money on the front end in the expectation you will save a 
whole lot more money at the back end. Hardest thing in the 
world to do to adopt that long-range point of view especially 
when your short-range practice is going up in your cheap 
energy.
    But the irony is that the folks that are most victimized by 
this short-sighted approach, or doing things the way we have 
always done it, are those who can least afford it. They are the 
ones who have the highest bills over the lifetime use of the 
buildings they occupy. So it is really imperative we think and 
try and find ways of building smart.
    Back home in Georgia, I had a colleague I served with on 
county commission, a guy named Carl Jordan, who was just 
passionate about this sort of stuff, and he would talk about it 
to the point where our eyes would glaze over. But he was trying 
to change the way we were doing things at the local level over 
a dozen years ago, long before it was on the congressional 
agenda.
    And I just want to thank you all, the insight you all are 
going to contribute to help us figure out how we can do this in 
a constructive way, one that isn't overbearing in its approach 
toward this but does help us figure out that oftentimes the 
smart way of doing things is the cheap way of doing things in 
the long run. So thank you all for your participation and, Mr. 
Chairman, thank you for your leadership in calling this 
hearing. And I yield back the balance of my time.
    Mr. Boucher. Well, thank you very much, Mr. Barrow. We 
welcome now our panel of witnesses, and we will turn to them 
for their testimony. Mr. David Rodgers is the Deputy Assistant 
Secretary for Energy Efficiency with the Department of Energy. 
Mr. Brian McLean is the Director of the Office of Atmospheric 
Programs for the Environmental Protection Agency. Mr. Marshall 
Purnell is the President of the American Institute of 
Architects. Mr. Matt Belcher is a representative of the 
National Association of Home Builders and the owner of Belcher 
Homes in St. Louis, Missouri. Mr. Thomas Gentry is an Assistant 
Professor at the School of Architecture at the University of 
North Carolina at Charlotte. Mr. Richard Weiland is the Chief 
Executive Officer of the International Code Counsel. Mr. 
William Fay, Director of the Energy Efficient Codes Coalition, 
and Mr. Brad Heavner is State Director for Environment Maryland 
in Baltimore, Maryland.
    We welcome each of our witnesses and without objection, 
your prepared written statement will be made a part of our 
record. We would welcome your oral presentation and since there 
are fully eight of you, we would ask that your oral 
presentation be kept to approximately 5 minutes. Mr. Rodgers, 
we will be pleased to begin with you.

  STATEMENT OF DAVID RODGERS, DEPUTY ASSISTANT SECRETARY FOR 
            ENERGY EFFICIENCY, DEPARTMENT OF ENERGY

    Mr. Rodgers. Thank you, Mr. Chairman, members of the 
committee, thank you for this opportunity to testify on how 
building efficiency programs and the Office of Energy 
Efficiency and Renewable Energy are addressing a triple threat: 
energy security, climate change, and economic competitiveness.
    Despite today's logical concerns about the cost of fuel in 
our vehicles, Americans will be spending virtually their entire 
week working, eating, study, recreating, or sleeping in a 
residential or commercial building, which, as you have noted, 
represents 40 percent of our Nation's primary energy 
consumption, 72 percent of our electricity, 55 percent of our 
natural gas, exceeding greenhouse gas emissions of any other 
sector of the U.S. economy.
    We must address building efficiency now and with a sense of 
urgency because the median lifetime for our buildings is very 
long. A commercial building will last 65 to 80 years. If we do 
not address cost effectiveness and enhance building energy 
performance now, these inefficient buildings will be with us 
for many years.
    The good news is energy efficiency is the quickest, least 
costly, lowest-risk path to achieving sustained reductions in 
greenhouse gas emissions. And a 2007 report by the McKinsey 
Global Institute identified that energy savings from currently 
available, existing technologies with an internal rate of 
return of more than 10 percent are sufficient to cut the growth 
of global energy consumption by more than half over the next 15 
years.
    The Department is very pleased to put forward a broad 
portfolio of programs, research, development, and 
demonstrations. Our fiscal year 2009 budget request will 
deliver programs that can reduce carbon dioxide emissions by 
500 million metric tons cumulatively by the year 2020 or two 
billion or two gigatons carbon dioxide emissions by the year 
2030.
    Our investments are designed to deliver and promote 
reliable, market-available policies, practices, and life cycle 
cost effective technologies that will permanently reduce a 
trajectory of U.S. energy demand growth and carbon footprint of 
the built environment while maintaining strong economic growth.
    Our efforts are focused in several key areas. First, a 
solid basis for energy efficiency improvements in the building 
sectors, while working to develop model building codes that are 
cost effective, regionally specific, and will be adopted at the 
State and local level.
    We are working closely with industry representatives on 
codes that are 30 percent more efficient than today's codes for 
both residential and commercial applications.
    We also recognize and support builders who are ready to 
move beyond codes. In February of this year, Secretary Bodman 
launched the Builder's Challenge, a voluntary national energy 
savings program, partnering with U.S. homebuilders to identify 
homes that can achieve 30 percent more efficiency on a whole 
house basis. Each home that is in the program will proudly 
display the Energy Smart home scale, which I have here on a 
poster, which is like a fuel economy label for your home, that 
we are encouraging to be used and adopted across the country by 
local governments.
    Our second area is to ensure that consumers and businesses 
have energy efficient choices for appliances and lighting. I am 
proud to say that under the leadership of Secretary Bodman, we 
have met 100 percent of our appliance standards rulemaking 
targets since we published our schedule more than 2 years ago. 
Appliance standards already on the books will avoid more than 
140 million metric tons of CO<INF>2</INF> annually by the year 
2030. The bipartisan act, Energy Independence and Security Act 
of 2007, EISA, passed in December, will avoid an additional 70 
million metric tons of CO<INF>2</INF> annually from appliance 
standards and lighting alone.
    Furthermore, in addition to codes and standards, we work 
with our partners at the Environmental Protection Agency, EPA, 
to promote voluntary adoption of the Energy Star Program of 
superior energy efficient products. Just this year, we rolled 
out Energy Star criteria for water heaters, which consume more 
than 17 percent of a home's energy. In the last 2 years, DOE 
has updated or promulgated new Energy Star criteria for clothes 
washers, dishwashers, refrigerators, and CFLs. We have 
published and finalized the first ever criteria for solid state 
lighting based on industry-developed test procedures at 
luminare efficacy performance metric. We believe solid state 
lighting has the potential to reduce lighting energy 
consumption by 50 percent when fully penetrated into the 
marketplace.
    Solid state lighting is only a sample of the research and 
development efforts that we are pursuing across the board 
leading to net zero energy buildings.
    In addition, we have established numerous partnerships with 
industry under the new EISA requirement for zero net energy 
commercial buildings initiative located in sections 421 and 
422. We are pleased to be partnering with Wal-Mart, Whole 
Foods, McDonald's, Home Depot, and many others to support the 
rapid deployment of energy efficiency in commercial buildings.
    Additionally, we are focused on broad public education and 
outreach efforts through our innovative partnerships such as 
those with Walt Disney, the Ad Council, and others to promote 
the adoption of energy efficiency products. Last year, through 
the efforts of many, more than 300 million compact fluorescent 
lights were sold in the United States, breaking a record.
    In addition, we work with local communities and school 
systems to introduce sufficient technologies through our Energy 
Smart Schools Program. And, of course, we work to adopt best 
practices and policies with our utility partners to help 
utilities profit from energy efficiency, demand-side management 
at least as much as they profit from adding new generation 
capacity.
    In conclusion, we have developed a comprehensive program 
within the department which we believe can lead to dramatically 
improved energy efficiency in buildings through low-cost 
solutions while greatly reducing CO<INF>2</INF> emissions. This 
concludes my remarks. I will be happy to answer your questions.
    [The prepared statement of Mr. Rodgers follows:]
    INSERT
    Mr. Boucher. Thank you very much, Mr. Rodgers. Mr. McLean.

 STATEMENT OF BRIAN J. MCLEAN, DIRECTOR, OFFICE OF ATMOSPHERIC 
           PROGRAMS, ENVIRONMENTAL PROTECTION AGENCY

    Mr. McLean. Good morning, Chairman Boucher and members of 
the subcommittee here today. I am Brian McLean, the director of 
EPA's Office of Atmospheric Programs, where EPA's energy 
efficiency and climate programs reside. I am pleased to testify 
today on the climate benefits of improved building energy 
efficiency.
    Energy and air pollution are inextricably linked. The 
energy we use causes the majority of our Nation's air pollution 
and greenhouse gas emissions. Commercial and residential 
buildings in particular are responsible, as has been said, for 
about 40 percent of the carbon dioxide emissions from fossil 
fuels used in this country, more than the emissions from either 
the industrial sector or the transportation sector. And these 
emissions are growing.
    Addressing the energy use in these buildings is important 
to a least cost approach to limiting greenhouse gases. Studies 
show that targeted energy efficiency policies and programs 
could cut in half the expected growth in electricity demand 
over the next 20 years at costs that are about half those of 
building the new energy supply we would otherwise need.
    Targeted policies are necessary for new construction of 
commercial and residential buildings and for the existing 
building stocks. Each of these markets is subject to market and 
policy barriers such as split incentives between builders and 
buyers, and landlords and tenants, lack of information, high 
transaction costs, and utility regulations that sometimes 
financially penalize utilities for helping their consumers save 
energy.
    These barriers stop many of the available low-cost 
improvements from occurring. EPA now has more than 15 years of 
experience addressing the market and policy barriers to energy 
efficiency in our buildings as part of this country's efforts 
to limit greenhouse gas emissions. Our primary focus is market-
based solutions. A leading example is the Energy Star Program, 
which is delivering significant results. As of 2007, EPA's 
efforts with Energy Star are helping Americans avoid the 
greenhouse gas emissions equivalent to those of 27 million 
vehicles while saving $16 billion on energy bills.
    EPA's efforts complement many other Federal and State 
policies and programs such as building codes, applying 
standards, research and development, energy efficiency in 
public housing and DOE's efforts in the Energy Star Program.
    Based on our experience, I would like to outline six 
priority areas where the Federal Government could capture low-
cost greenhouse gas reductions through increased investment in 
energy efficiency. First, engage the consumer in reducing their 
own energy use and carbon footprint through the Energy Star 
Program. Education linked to reliable energy efficiency 
solutions for the consumer is powerful. The consumer makes the 
decisions about the household, and currently they can save 
about 30 percent of their energy bills or $600 annually on 
average if they choose Energy Star products from the more than 
50 product categories where Energy Star options are now 
available.
    Second, provide Energy Star New Homes as a beyond-code 
opportunity for builders and update these requirements as 
feasible. Over the past 12 years, the EPA Energy Star New Homes 
Program has grown to encompass more than 5,000 builders. They 
qualified about 12 percent of new homes nationally last year. 
That is Energy Star and market penetrations of 20 percent or 
more, and many areas indicated likely further growth.
    These Energy Star homes are 20 to 30 percent more efficient 
than the standard home built today. This beyond code program is 
an important part of mainstreaming new building practices.
    Third point is to expand partnerships with utilities and 
other State and local energy efficiency program sponsors to 
increase consumer access to best practice energy efficiency 
improvement programs for existing homes and commercial 
buildings as well as new construction. These organizations have 
established track records in delivering efficiency programs, 
and some of them are using new whole building approaches to 
deliver deeper energy savings per building.
    The whole building retrofit programs are particularly 
important for existing buildings because they can address the 
critical barrier of lack of qualified contractors who are 
essential to improving our Nation's homes, particularly those 
constructed before codes were even in place.
    Fourth, we should expand the ability to rate the energy use 
of Nation's buildings using standardized measurement systems 
and promoting the value of this information. As David mentioned 
also, knowing the equivalent of a mile per gallon rating of a 
building is powerful information. EPA's building rating system 
has been used to rate the energy use of about 15 percent of 
commercial square footage as of 2007, and this is growing 
dramatically each year. This system is now being integrated 
into a variety of building services and policies, and its 
expansion will be important to building efficiency efforts.
    Fifth point I wanted to make is to work with State 
policymakers on effective State policies with delivering energy 
efficiency across the building sector as we have tried to do 
through the National Action Plan on Energy Efficiency and our 
State partnerships and engage local governments in the role 
they can play with their facilities and with their communities. 
State and local policies are some of the most pivotal ones in 
the country in determining the level of investment in energy 
efficiency and the effectiveness of that investment. Effective 
approaches need to then be documented and shared.
    And the sixth and final point is to focus on improving 
practices for evaluation, measurement, and verification of 
energy efficiency programs to improve the ability of energy 
efficiency to compete with energy supply options and deliver 
greenhouse gas reductions.
    In conclusion, there is an important federal role in 
developing standard approaches but also in assisting key 
players and capturing the energy efficiency potential in our 
Nation's buildings and helping meet greenhouse gas emission 
reduction roles. Many of these efforts will likely become more 
important should energy prices rise in response to climate 
legislation. Thank you.
    [The prepared statement of Mr. McLean follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Boucher. Thank you very much, Mr. McLean. Mr. Purnell.

  STATEMENT OF MARSHALL E. PURNELL, FAIA, PRESIDENT, AMERICAN 
                    INSTITUTE OF ARCHITECTS

    Mr. Purnell. Chairman Boucher, Ranking Member Upton, and 
members of the subcommittee, good morning. I am Marshall E. 
Purnell, FAIA, president of the American Institute of 
Architects, and I am the design principal with Devrouax and 
Purnell Architects and Planners PC here in Washington and 
originally from western Michigan.
    On behalf of AIA's 84,000 members, I would like to thank 
you for the opportunity to appear today to share our thoughts 
on the potential for energy savings and reductions in 
greenhouse gas emissions that can be achieved through greater 
efficiency in our Nation's buildings.
    According to the Department of Energy, as has been stated, 
buildings and their construction are responsible for nearly 
half of all the greenhouse gas emissions produced in the U.S. 
every year. DOE's 2007 Building Energy Data Book reveals that 
the building sector accounts for 39 percent of total U.S. 
energy consumption, more than both the transportation and 
industry sectors, and that buildings are responsible for 71 
percent of U.S. electricity consumption.
    More importantly, building in the United States alone 
account for 9.8 percent of carbon dioxide emissions worldwide. 
In fact, U.S. buildings account for nearly the same amount of 
carbon emissions as from all sectors of the economies of Japan, 
France, and the United Kingdom combined. So when Congress talks 
about greenhouse gas reduction, buildings must be a part of the 
discussion.
    As this committee has explored this issue through white 
papers and hearings, one theme has remained constant: any 
legislation addressing climate change must result in 
significant greenhouse gas reductions with minimum economic 
disruption. Improving the energy efficiency in our Nation's 
buildings offers the greatest potential for reducing carbon 
emissions at the lowest cost.
    A December 2007 report by McKinsey and Company found that 
energy efficiency improvements in residential and commercial 
buildings, including the appliances inside, make up the largest 
cluster of negative cost debatement opportunities, meaning 
building efficiency improvements generate positive economic 
returns through reduced energy costs. The McKinsey report notes 
that if most cost-effective building energy efficiency 
investment were encouraged through policy changes, it is 
realistic to predict a 710-megaton reduction in greenhouse gas 
emissions by 2030.
    As an architect, I work every day to design spaces that 
maximize energy efficiency, and I can personally report that 
architects across the country are creating buildings that 
achieve energy savings that in many cases are far beyond what 
current building codes require.
    Architects and engineers achieve energy efficiency through 
lighting retrofits, improve heating, ventilation, and air 
conditioning systems, building envelopes, and building control 
systems. Architects utilize design practices that integrate 
built and natural systems that enhance both the design quality 
and environmental performance of buildings.
    We are making great strides in reducing the carbon 
footprint of the built environment, but there is much more we 
can do. This is a national priority, and it demands a national 
response. Climate change legislation affords a once-in-a-
lifetime opportunity to make major gains in building 
efficiency.
    What can Congress do? First, it can encourage the 
development of stronger energy building codes. We support a 
proposal that was in the House version of last year's energy 
bill that would have set efficiency targets for residential and 
commercial codes and would have directed DOE to propose 
amendments to those codes to reach such targets if they fail to 
do so.
    Some have claimed that this would, in essence, establish a 
national building code. What it would do is empower States and 
local governments to implement the codes that achieve greater 
energy efficiency.
    Second, Congress can provide incentives and technical 
support to States, localities, utilities, building owners, and 
design community to help foster the design, construction, and 
renovation of energy efficient buildings. Such support would go 
a long way in helping those who deal with buildings every day 
and make a measurable difference in energy consumption.
    Climate change legislation presents an unprecedented 
opportunity to make significant and lasting reductions in 
greenhouse gas emissions from the built environment. This is no 
easy task, and some will worry about the cost of these actions. 
But the cost of inaction is even greater. The world we design 
today is the one our children and grandchildren will inhabit 
tomorrow.
    If we want that world to be a healthy, sustainable, and 
prosperous place, then we owe it to the future generations to 
take these steps today. We look forward to working with you to 
ensure that any climate change legislation to emerge from this 
subcommittee encourages greater energy efficiency in our 
Nation's buildings.
    I thank you and welcome any questions from the 
subcommittee.
    [The prepared statement of Mr. Purnell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Boucher. Thank you very much, Mr. Purnell. Mr. Boucher.

STATEMENT OF MATT BELCHER, OWNER, BELCHER HOMES LLC, ON BEHALF 
          OF THE NATIONAL ASSOCIATION OF HOME BUILDERS

    Mr. Belcher. Thank you. Good morning. Chairman Boucher, 
Ranking Member Upton, and distinguished members of the 
subcommittee, my name is Matt Belcher, and I am a homebuilder 
from St. Louis. I am pleased to testify today on behalf of the 
230,000 members of the National Association of Home Builders.
    Today's energy and climate crisis truly affects everyone 
including builders like me. The housing industry continues to 
work on solutions to address energy conservation and improve 
sustainability in our Nation's residential dwellings. As a 
builder of green homes, I have firsthand knowledge of what it 
takes to make a home energy and resource efficient. I also 
understand the dynamic interaction of the many important 
aspects of housing as it relates to green building: 
construction, technology, efficiency, and affordability.
    Finally, I once served as a local building code official 
and can appreciate the unique nuances of both using and 
enforcing building codes. Unfortunately much of today's 
rhetoric about what can be accomplished with stricter building 
codes is terribly distorted. The assertion is often made that 
requiring all new homes, which are already dramatically more 
efficient than older housing, to comply with significant above 
code benchmarks saves massive amounts of energy and greenhouse 
gas emissions.
    Regrettably, this is not the case as newer homes use only a 
small fraction, approximately two and a half percent, of total 
energy anyway, meaning the bulk of energy loss and thus the 
major opportunity for energy savings lies in the 95 million 
existing homes built before 1991 that use 17 percent of the 
Nation's energy.
    Because our Nation is inherently variable in climate, 
State, and local governments need to be able to adopt wide 
ranging building code standards to address their specific 
geographic needs.
    It is impossible and frankly inadvisable to develop one 
single building code or benchmark to apply to all areas of the 
country. Building codes and energy efficiency are naturally 
local. One way to support adoption and effective implementation 
of stronger local energy building codes is through more 
resources to help localities adopt and enforce meaningful and 
regionally specific codes and practices.
    For builders like me that have been leading the way in 
progressive sustainability, now known as green building, energy 
efficient construction is the norm. In fact, with skyrocketing 
energy prices and despite the worst housing downturn since 
World War II, the demand is growing for more efficient homes. 
The exponential growth in green building is dramatically and 
rapidly changing residential construction as we know it. 
Consumers and builders are collectively changing the 
residential marketplace. However, if Congress desires a faster 
pace for such change, then it must make more meaningful 
commitments to incentives for new energy efficient homes and 
homeowner efficiency upgrades.
    Congress has yet to pass extensions of important efficiency 
incentives such as the section 45L and section 25C tax credits 
to encourage efficiency in new and existing homes. Real energy 
savings can be achieved through meaningful incentives for 
energy efficiency, particularly for existing homes, education 
on proper home and maintenance, and the value of conservation, 
and even incentives to reward conservation.
    Stricter building codes for new homes is a drop in the 
bucket compared to the energy that can be saved by teaching 
homeowners not to waste the over 48 percent of their energy on 
laundry, cooking, and electronics used in the home. Preserving 
housing affordability for the next generation of green and 
energy efficient homes is crucial, especially for the 
individuals with the most price sensitivity, that is moderate 
income, first-time homebuyers.
    These homebuyers, who are among some of my customers, 
continue to benefit the most from the savings and healthier 
living environment that can be achieved through increased 
energy efficiency found in new homes and through improvements 
to existing homes.
    Mandating market outcomes through stricter building codes 
alone will not achieve meaningful energy savings and preserve 
housing affordability. Homebuilders have the responsibility to 
drive technology and innovation into the market in a manner 
that is affordable for consumers so that demands for greater 
efficiency can continue to increase.
    Congress can help by crafting meaningful incentives for 
existing homeowners, offering incentives for builders that 
truly push the envelope for energy efficiency and providing 
resources to local building code officials to enforce existing 
codes.
    I thank you all for the opportunity to testify today and, 
of course, would be happy to answer questions.
    [The prepared statement of Mr. Belcher follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
     Mr. Boucher. Thank you, Mr. Belcher. Mr. Gentry.

 STATEMENT OF THOMAS A. GENTRY, ASSISTANT PROFESSOR, SCHOOL OF 
    ARCHITECTURE, UNIVERSITY OF NORTH CAROLINA AT CHARLOTTE

    Mr. Gentry. Mr. Chairman, members of the committee, thank 
you for inviting me to speak. Today I will focus on the 
potential of reducing energy use and greenhouse gas emissions 
for residential buildings by providing brief answers to six of 
the questions that were in your invitation.
    My background in this area is I am a recent professor in 
architecture, a licensed architect, did that for a while. Still 
continue to do that, and for 20 or more years I was a general 
contractor of light commercial and residential construction. I 
built my first solar home, energy efficient home, in the 1970s 
and have been doing so ever since. It is something I am very 
passionate about and have spent a lot of time investigating.
    Starting with your first question, what reductions in 
energy use and greenhouse gas emissions are possible from 
state-of-the-art building designs that are cost-effective and 
do not diminish other attributes and uses? This is actually a 
pretty straightforward question in that there are actually 
quite a few state-of-the-art and also tried-and-true methods 
that currently exist that we can be using to reduce greenhouse 
gas emissions.
    One example is advanced wall framing, which is a method of 
framing that reduces the amount of wood in the wall, exterior 
wall, and thereby reduces the amount of thermal bridging, which 
results in unwanted heat losses and heat gains.
    Second question was what are the factors that have led to 
new residential construction falling far short of the potential 
to reduce energy use and greenhouse gas emissions? In a 
nutshell, most of the housing in this country is built as a 
product for market. That means short-term economic concerns 
tend to override long-term benefits. Developers and builders 
produce what the market demands. Potential owners focus more on 
size and finishes than they do on heating and cooling costs and 
environmental impact. And mortgage lenders only consider the 
initial price in qualifying buyers. The way out of this energy 
inefficiency and environmentally non-sustainable trap is for 
the mortgage lenders to take the lead in looking at the triple 
bottom line when qualifying buyers.
    TBL, as it is called, looks at the financial, 
environmental, and social cost of values for each transaction. 
The approach has been adopted by several major corporations and 
a few financial institutions.
    I did a project in Chicago with a university I used to be 
affiliated with there. It was a student-designed and -built 
project, and the bank we worked with was very proactive in TBL 
financing. It was the reason why that project was successful.
    What can the Federal Government do to address those 
factors? The Federal Government has tried to address these 
factors in 1979 when HUD implemented the Energy Efficient 
Mortgage Program, which increases the amount buyers can borrow. 
Unfortunately, the perception is the loans are more complex to 
obtain than conventional loans. Therefore less than 2 percent 
of the loans currently being made by a major federal lender are 
EEM loans.
    Based on the limited success of this program and the 
regional issues which I will discuss shortly, the Federal 
Government should take a supportive role in helping States and 
municipal governments implement regional codes and guidelines 
for energy efficiency. To date, one of the most valuable things 
the Federal Government has done has been to empower States' 
municipal governments with information from research. This 
information is invaluable in formulating codes and standards.
    Question four: what are my views on efforts to upgrade and 
provide enhanced implementation of energy efficient building 
codes?
    Success in the implementation of energy building codes has 
been limited to a few States and municipalities. In 1978, 
California adopted title 24, part 6, of the California Code of 
Regulations, Energy Efficiency Standards, for residential and 
noncommercial buildings. Minnesota has had an energy code since 
1976. More recently, the city of Chicago adopted the Chicago 
Energy Conservation Code. These three codes are good examples 
of how regional codes can yield housing that is more energy 
efficient than what is being built throughout most of the 
country.
    Question five: what are market and non-market barriers that 
have resulted in much new home construction falling well below 
cost-effective levels of energy efficiency?
    The Department of Housing and Urban Development lists 
fragmentation, risk, education, cultural values as the four 
barriers to innovation in housing. Looking closer at 
fragmentation barriers, research shows fragmentation occurs 
vertically, horizontally, and geographically with geographical 
fragmentations being due to municipal regulations, industry 
competition, and the predominance of small builders. What is 
missing from this list is regional practices. As a laborer, 
carpenter, and general contractor, I have built housing 
throughout much of the United States, and experience has shown 
me how regional practices vary due to differences in climate, 
available materials, and local skills.
    Risk and education are two more barriers I have watched 
builders struggle with. The National Research Council summed it 
up nicely: ``Although many effective energy efficient materials 
and products do not have higher first costs, builders resist 
implementing them because additional time is needed to train 
workers to install them, and until the builder gains experience 
with these energy efficient materials and products, they are 
perceived as risky.''
    A factor that is amplifying the severity of these barriers 
is the increasing practice of piecework. Builders routinely pay 
short-term labor by the piece, rather than by the hour, to 
perform specific tasks. The practice has yielded a labor force 
of workers that floats from builder to builder, and within the 
labor force, each worker typically possesses a very limited set 
of skills. With workers no longer employed by one builder for a 
significant period of time to do a wide range of tasks, there 
is little incentive for the builder to educate the labor force.
    Question six: how should the market and non-market barriers 
to inclusiveness of cost effective energy efficiency in new 
buildings be overcome?
    Organizing the barriers into two groups, those that are 
unique to each region, such as regional building practices, and 
those that are universal throughout the United States, such as 
risk associated with the adoption of new technology, provides 
some insight into how the energy code should be used to 
overcome these barriers. With the housing industry resistant to 
change, it stands to reason the less change an energy code 
requires, the more likely it is to be implemented. It also 
stands to reason more changes will be required when two or more 
regions with dissimilar forms of fragmentation are combined 
into one region as a common energy code would do.
    This argues for implementation of energy codes on a 
regional basis, be it State-by-State or municipality-by-
municipality. Thank you for this opportunity.
    [The prepared statement of Mr. Gentry follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Boucher. Thank you, Mr. Gentry. Mr. Weiland.

   STATEMENT OF RICHARD P. WEILAND, CHIEF EXECUTIVE OFFICER, 
                   INTERNATIONAL CODE COUNCIL

    Mr. Weiland. Good morning, Mr. Chairman, distinguished 
members of the subcommittee, Congresswoman Matsui. My name is 
Rick Weiland. I am the Chief Executive Officer of the 
International Code Council. I am delighted to be here to 
discuss the benefits of increasing energy efficiency in the 
built environment.
    I address you on behalf of tens of thousands of building 
safety professionals. We call them first preventers, as they 
are increasingly being known these days. Our members have the 
crucial role of developing and enforcing the codes that protect 
people, property, and health and limit risks to first 
responders when accidents do occur.
    We are in the unique position of being the organization 
that provides the forum for the development of building codes 
in the United States, codes that are used by nearly every State 
and local jurisdiction that has adopted a mandatory building 
code. While we cannot control the outcome of the open and 
democratic process for code development that we refer to as the 
governmental consensus process, we do try to lead by example.
    We also educate our membership of building industry 
professionals on the latest technology, materials, and 
processes available to make buildings better, safer, and more 
energy efficient. We offer a residential energy inspector 
certification, and we are developing currently a certification 
for inspector of green building technologies.
    The Code Council is also the forum for the development of 
the International Energy Conservation Code, or Energy Code, and 
has been ever since the Council and its legacy organizations 
worked with the Department of Energy on the first energy 
efficiency construction code some 30 years ago.
    We understand, as you certainly do, that in a democratic 
process like our consensus process for developing codes, not 
everyone will be completely satisfied with the result. Some 
will say the code is moving too fast. Others will say not fast 
enough.
    The dedicated code professionals who devote their time to 
participating in the code development process take seriously 
their commitment to building and fire safety. In that context, 
however, they want to make sure that energy efficiency 
amendments don't conflict with those goals and are cost-
effective to both users and those in the construction industry. 
When the codes meet those criteria, they are more likely to get 
adopted and enforced locally all across the Nation.
    Our process requires that each of our codes is revised and 
updated regularly and reissued every 3 years. Each of our 13 
model codes including the Energy Code, is developed through our 
open process, and each is offered equally for adoption to any 
jurisdiction that wishes to adopt it with or without 
modifications.
    As the Committee suggests in its questions, residential 
energy efficiency could be higher, and the Code Council is 
committed to help lead the way in making that happen. Two 
examples I would like to highlight. First, the Code Council's 
development of the National Green Building Standard in 
partnership with the National Association of Home Builders 
expected to be first true green standard developed for 
residential construction through the ANSI process.
    And the second, the Code Council's promotion of H.R. 4461, 
which I spoke to the chairman about before the hearing, which 
will provide grants to building and fire code administration 
and for compliance capabilities. This legislation will provide 
matching challenge grants to help local governments develop 
stronger code compliance for the long term. And without strong 
compliance, even the most positive code provisions have limited 
value.
    We are pleased that the full House approved H.R. 4461 just 
last week. This bill was introduced by Congressman Dennis Moore 
of Kansas and had several cosponsors, including Congresswoman 
Matsui. But it is one area really where we feel the federal 
role is absolutely appropriate and critical to overall 
effectiveness. You can mandate whatever you want in terms of 
building energy efficiency or green buildings, but if you don't 
have people on the local--in government at the ground level 
making sure that those codes are being complied with, you are 
creating a false sense that you are doing something positive 
and moving forward.
    The International Code Council has always welcomed federal 
agency involvement and participation in the development and use 
of our codes, including the Energy Code. In that process, 
several code changes to increase building energy efficiency are 
now pending and will be voted on later this year.
    The respected research and statistical information provided 
by DOE and other agencies in support of such proposals is very 
helpful. And the Department of Energy and other federal 
agencies should be encouraged to continue their involvement and 
frankly expand their participation.
    Beyond code development, we are always ready to work with 
other federal agencies. For example, right now we are 
coordinating our Smart Codes effort to automate code checking 
including energy code through the Building Information Modeling 
system. This new technology will help agencies to better and 
more efficiently meet their own energy and environmental 
mandates from Congress and the President. As with other 
technologies where the government leads by example, this 
technology will be very useful in the private sector as well.
    Beyond changes to the codes and these partnering 
activities, we would also respectfully suggest the need, as was 
mentioned earlier, for incentives for existing home and 
building owners such as the tax incentives contained in the 
Energy Policy Act of 2005. Such policies encourage increased 
energy efficiency in existing buildings, which are generally 
not affected by changes in the building code unless extensive 
remodeling or renovation takes place.
    We look forward to working with Congress, with all of you, 
with our colleagues in the construction and energy conservation 
communities and other interested parties to increase the energy 
efficiency of the built environment, just as we have worked 
over the years to increase building safety and fire prevention 
over the years.
    With that summary, I would like to thank the committee and 
the chairman for this opportunity to contribute to this ongoing 
national dialogue on energy efficiency in the built 
environment. Thank you.
    [The prepared statement of Mr. Weiland follows:]

                    Statement of Richard P. Weiland

    Good morning, Mr. Chairman, and distinguished Members of 
the Subcommittee. My name is Richard Weiland, Chief Executive 
Officer of the International Code Council. I am delighted to be 
here to discuss the benefits of increasing energy efficiency in 
the built environment, speaking on behalf of the tens of 
thousands of code safety officials, ``First preventers,'' as 
they are increasingly known, who have the crucial role of 
implementing the codes that protect people, property and health 
and reduce risks to First Responders when accidents occur.
    The Code Council was formed in 1994 as a nonprofit 
organization dedicated to developing a single set of 
comprehensive and coordinated national model construction 
codes. The founders of the ICC were the Building Officials and 
Code Administrators International, Inc. (BOCA), International 
Conference of Building Officials (ICBO), and Southern Building 
Code Congress International, Inc. (SBCCI). Since the early 
1900s, these nonprofit organizations developed three separate 
sets of model codes used throughout the United States. Although 
such regional code development was effective at the time, a 
global marketplace and technological advances in construction 
made a single set of codes a practical necessity. The Nation's 
three model code groups responded to this need by creating the 
International Code Council and by developing codes without 
regional limitations--the International Codes.
    Today our International Codes have been adopted at the 
state or local level in all 50 states and the District of 
Columbia. Numerous federal agencies, including the General 
Services Administration, the Department of Defense and the 
Architect of the Capitol have implemented the I-Codes, as have 
Puerto Rico and the U.S. Virgin Islands. The Code Council's 
46,000 members and 300 chapters include state, county and 
municipal code enforcement and fire officials, architects, 
engineers, builders, contractors, elected officials, 
manufacturers and others in the construction industry.
    Recognizing that buildings are responsible for 40 percent 
of annual energy consumption and 25 percent of landfill 
deposits in the United States and that energy efficiency is 
central to environmental security and health safety, the Code 
Council embraces its national and international leadership 
responsibility in helping communities everywhere become better 
stewards of the safety of our people and the health of our 
planet. The stronger and more sustainable homes and buildings 
are, the safer and more affordable to maintain they become and 
the less impact they have on the world's limited resources. 
Energy efficient buildings save money by greatly reducing 
operating and maintenance costs. Helping communities build 
safe, sustainable and green is a core element of ICC's mission 
for the 21st century.
    The Code Council is the proper forum for the development of 
an energy efficiency code for buildings. Long before the use of 
the term ``green'' came into vogue, in the mid 70s, ICC's 
legacy organizations developed with the Department of Energy 
the first energy efficiency construction code--a model code 
still used today as the basis for state and local energy codes. 
Our widely adopted family of codes set the minimum performance 
standards for energy efficiency, demonstrating the significant 
benefits that can accrue through compliance with codes and 
standards that are consistent and coordinated to achieve the 
maximum benefit for the lowest cost.. The model codes also 
provide the platform from which state and local governments can 
move to even higher standards.
    Each of the 13 model codes developed by the Code Council is 
written for direct adoption by government authorities as 
legally enforceable requirements. As important as our codes 
are, it is the professional commitment and capabilities of 
design and build professionals and compliance officials that 
ensures that code requirements are actually met. The 
professional certification and training programs we provide 
prepare and qualify building and fire safety professionals 
across the country. These certification and training programs 
are based on a thorough understanding of these codes as 
mandatory engineering and architectural requirements for design 
professionals, and as readily measurable requirements for 
inspectors.
    The Subcommittee is specifically interested in the question 
of improved energy efficiency for buildings as it relates to 
our model codes. Before I address that issue, I would like to 
take a moment and explain how the code development process 
works. Our model codes are regularly updated and amended 
through an open and thorough democratic process in which any 
individual or group can propose a change. ICC committees, 
comprised of a balance of interests, hear all code change 
proposals. These members are the same people who work every day 
as design, construction and compliance professionals, saving 
lives, protecting property and reducing recovery costs. Final 
decisions are made by our voting members, who have no vested 
interests beyond public safety.
    Through this Governmental Consensus Process we reach a 
grassroots national position on how responsibly to address 
Americas needs, priorities and expectations for the built 
environment. It is undoubtedly true that in a democratic 
process like ours not every jurisdiction or industry sector 
will be completely satisfied with the outcome. Inevitably some 
will say we are moving too fast, and others that we are not 
moving fast enough. Because the decisions are consensus driven 
and arrived at democratically, the result does not represent an 
extreme, but rather a prudent and practical result based on 
technological feasibility, economic purpose, and public 
benefit.
    The Subcommittee asked whether model building codes give 
the same priority to energy efficiency as to fire protection 
and other safety elements. The fundamental mandate of model 
codes is to protect the health, safety and general welfare of 
building occupants, both in regular building usage and in 
emergency situations. The Code Council publishes 13 codes, 
relating to different aspects of construction and building use- 
each is developed in the same fashion and offered for adoption, 
but individual jurisdictions are free to choose which of these 
codes to adopt and enforce. In that respect, the Energy 
Efficiency Code is treated just like every other code we 
publish. Within the building codes, increasing energy 
efficiency must remain consistent with our responsibility to 
provide for structural safety, fire prevention, water use, 
sanitation, disaster resilience, indoor air quality, emergency 
egress, and the like. The minimum requirements of the codes are 
based on the voting action of our membership and reflect broad, 
expert consensus regarding the very least that can and should 
be done in achieving energy efficiency in tandem with other 
building requirements.
    Yet in the development of our Nation's model building 
codes, there is a long and proud history of public safety 
professionals using the code development process as a forum for 
addressing broad and growing social expectations in building 
requirements. In this way advances in energy efficiency can 
most directly and effectively be translated into widely 
understood, adopted, and enforced policies and practices.
    Clearly, expectations for more stringent requirements in 
the ICC energy code for new buildings are increasing. Interest 
in the ICC Energy Conservation Code has grown in each code 
development cycle since it was first produced. During the 2007 
092008 cycle, a record 150 code change proposals were submitted 
related to the energy code. One hundred of those proposals will 
be considered for inclusion in the 2009 I-Codes during the 
Final Action Hearings in Minneapolis this September. Of those 
100 proposed changes, I will highlight two that would affect 
energy efficiency in buildings.
    Both proposals are essentially the same, but one (EC-14) 
would mandate the reduction of energy use in buildings by 30 
percent, while the other (EC-154) would make the reduction 
optional. This so-called ``30 percent solution'' has been 
proposed by the Energy Efficient Codes Coalition and would add 
new efficiency measures for lighting, insulation, ventilation 
and other building components that contribute to energy use. 
The proposals are in direct response to DOE's Energy Efficiency 
Campaign, which calls for the evaluation and strengthening of 
residential and commercial building codes.
    As the Subcommittee suggests in its questions, residential 
energy efficiency could be higher, and the Code Council is 
committed to providing a forum for that outcome. It is our view 
that the most significant barrier to achieving compliance with 
a significant number of state and local energy efficiency 
requirements based on the ICC Energy Efficiency Code is a lack 
of financial support for code offices and code officials. The 
quality and effectiveness of codes are ultimately dependent on 
having professionals in the field in every local community who 
have the tools and training to ensure compliance.
    For more than 2 years now the Code Council has been working 
with Congress to establish a competitively available grant 
program dedicated exclusively to the purpose of funding 
improvements in local and state code enforcement capacity. We 
are of course incredibly pleased with the House passage last 
week of H.R. 4461, the Community Building Code Administration 
Grant Act of 2007, sponsored by your colleague from Kansas, 
Representative Dennis Moore. With the support of over 100 
nationally endorsing organizations, including some of my fellow 
panelists, we are actively working to encourage Senate action 
on S. 2458, the companion to the House bill.
    The Code Council, in partnership with the National 
Association of Home Builders, has also just completed initial 
development of the National Green Building Standard, which is 
expected to be the first ANSI-accredited standard for green 
residential construction. This new standard will make it easier 
for builders to adapt to green building methods, techniques and 
materials, and it will give jurisdictions a means to scale up 
and provide requirements for even higher energy efficiency.
    The green building standard is just one way in which we are 
seeking to lessen the environmental impact of the built 
environment. The Code Council already offers a Residential 
Energy Inspector Certification, and is developing a new 
certification for code officials to demonstrate an inspector's 
ability to assess compliance with green building programs. The 
Inspector of Green Building Technologies will help ``First 
Preventers'' provide assurances that green building projects 
are both safe and meet current energy codes and standards. ICC 
also supports sustainable building through a working agreement 
with the U.S. Green Building Council to develop green 
educational materials.
    The Committee also asked whether code requirements are 
readily enforceable by local code inspectors. This was one of 
the issues raised years ago when the first energy codes were 
developed. Since then and through our process many enhancements 
have been made to the code that include clear labeling of 
products, simplicity of requirement presentation, availability 
of software, and minimization of calculation. Code enforcers 
can also request an interpretation, or review support materials 
available, through the Code Council.
    The Committee asked why the energy requirements in the 
codes are not higher. The short answer is that the process 
determines the requirements. Considering where the requirements 
started in 1977 they have become significantly higher and 
should continue to do so commensurate with available research 
and analytical documentation.
    While the focus on global warming is important, the 
consensus process allows for other issues to be taken into 
account. When dealing with buildings that are expected to last 
for 50 or 100 years, factors such as safety, longevity, life-
cycle cost and potential unintended problems must also be 
considered. Our process ensures that those who must implement 
design and product changes at the level of building 
construction and renovation are actually aware of those new 
technologies, and that building officials can assure 
installation in compliance with the code.
    We welcome and encourage heightened Federal involvement and 
participation in the development and dissemination of our 
codes, including revisions to the International Energy 
Conservation Code, where support for higher efficiency 
standards would be helpful, and the National Green Building 
Standard. We also welcome the participation of our colleagues 
and friends at the witness table, some of whom are already 
extensively involved.
    Federal agencies and officials have long played an 
important role in the code development process. Like Code 
Council members and the public at large, federal agencies can 
offer code changes, present evidence, and act in advocacy for 
the adoption, amendment or rejection of proposals.
    The Department of Energy, represented here on the panel, is 
among the most active. The history of DOE's involvement with 
model codes goes back more than 30 years, to the development, 
adoption and implementation of the first nationally recognized 
stand-alone model energy code. Other agencies adopting and 
utilizing model codes include the Department of Housing and 
Urban Development, especially for elements addressing 
accessibility and the Fair Housing Act; the General Services 
Administration; the Department of Defense; and the Architect of 
the Capitol.
    Because we are addressing national imperatives to increase 
energy efficiency and reduce greenhouse gas emissions, DOE and 
the Environmental Protection Agency must be supported and 
funded to actively participate in the ICC model code 
development process at a level on par with our national 
priority to achieve these results. True to the nature of our 
democratic process, acceptance of code change proposals is 
based on the development and presentation of supporting 
research and actively providing background and education to 
other participants. It is through grassroots efforts that code 
advancements are accepted, then made local policy by 
jurisdictional adoption, and then put into force by design, 
building and compliance professionals across the country.
    For maximum effectiveness, building energy code development 
and advocacy must remain principally focused on the ICC model 
code process. The Federal/State/local partnership in 
development and enforcement of policies to achieve building 
energy code requirements must continue to respect the 
jurisdictional independence of local and state authorities.
    We also need to address the fact that the majority of our 
present and near-future energy consumption is by buildings that 
exist already. Unless a building is remodeled or renovated, it 
will not be affected by building code requirements for new 
construction. Steadily and responsibly advancing requirements 
for new building is part of the equation, but we also need to 
continue to increase our investment, as a nation, in incentive 
policies that will successfully encourage existing property 
owners, both commercial and residential, to voluntarily 
retrofit older buildings with cost-effective improvements that 
will get their properties to perform as close as possible to--
or even outperform--new building requirements.
    Market barriers to greater energy efficiency are being 
identified through the work of organizations that prepare 
product evaluation reports to facilitate the acceptance of new 
technology. These reports are used by code compliance officials 
to recognize and accept the installation of new technologies 
that can support energy and environmental goals. Our affiliate, 
ICC Evaluation Service, is one such national organization.
    ICC's efforts to facilitate the application and use of 
Building Information Model (BIM) technology will help address 
the productivity issues facing the building industry, and cost 
savings can be applied toward making buildings more energy 
efficient. A BIM prepared from a building design can be quickly 
analyzed for energy code compliance. This is particularly 
useful since a building designed to be compliant in one 
geographic region may need different features for compliance in 
another. BIM technology can also reduce the energy consumed in 
constructing a building through more efficient management and 
use of time and materials.
    In closing, the Code Council and its members are proud of 
their support of the environment through the development of 
responsible and innovative codes and standards for the 
regulation of building construction. I applaud the work of your 
Subcommittee and encourage continued collaboration between the 
public and private sectors to achieve the important goal of 
increased energy efficiency in our nation's buildings. Thank 
you again for the opportunity to appear before you today. I 
will gladly answer any questions.
                              ----------                              

    Mr. Boucher. Thank you very much, Mr. Weiland. Mr. Fay.

 STATEMENT OF WILLIAM D. FAY, DIRECTOR, ENERGY EFFICIENT CODES 
                           COALITION

    Mr. Fay. Mr. Chairman, Mr. Upton, members of the committee, 
I want to thank you very much for the opportunity to tell you 
about a very exciting effort to boost energy efficient codes 
for new home construction by 30 percent.
    Polls show that Americans want and are willing to pay more 
for energy efficient homes, just as they want fire and safety 
protection. But because they aren't experts in those vital 
areas and because the new homes that they buy are often already 
completed, we have to have model codes to guide our energy, 
fire, and safety requirements. Unfortunately, our energy model 
code, the IECC, is lagging behind our Nation's desperate need 
for energy efficiency. In fact, one of the last great frontiers 
of wasted energy in the United States is in our homes.
    That is why our organization united--to try to take a new 
approach to energy codes. It is rare to see a marriage as vast 
as our Energy Efficient Codes Coalition. All forms of 
utilities. We have investor-owned. We have co-ops and 
municipalities as members. We have environmental groups. We 
have all five regional energy alliances from the Midwest, 
Northeast, Northwest, Southeast, Southwest. We have businesses. 
We have government. NASEO, which represents state energy 
officials, is a member of our effort. Low-income homeowner and 
consumer advocates, and I am just naming a few of them. I have 
attached the list to the end of my testimony.
    Our goal is very simple. We want to boost the 2009 IECC by 
30 percent over the current model code, and we have authored 
the only proposal before the IECC that will actually accomplish 
that goal. ``The 30% Solution'' is what we call it, which will 
come up for vote by the ICC on or soon after the 20th of 
September in Minneapolis, is filled with low-hanging fruit for 
energy efficiency. Its elements--and they are extensive. They 
cover nearly every part of home construction. They cover space 
heating and cooling. They cover duct testing. They cover the 
thermal envelope, air sealing, hot water heating, and lighting.
    All of its elements are being built in energy efficient 
homes around the country as we speak. This is not complicated. 
We are not driving technology. Everything we are putting in 
this proposal is on-the-shelf, existing technology that is 
being done around the United States.
    Homeowners are going to reap the rewards of our 30% 
Solution in terms of positive cash flow from the stabilized 
utility bills on the day that they move in. The 30% Solution 
was supported in testimony by the U.S. Department of Energy at 
the hearings in February. The U.S. Conference of Mayors has not 
only passed a resolution unanimously in support of The 30% 
Solution, but it has also urged its members, mayors around the 
United States to send delegates to the International Code 
Council to make sure that they are voting for The 30% Solution.
    Our proposal does not tell people to use less energy. It 
simply reduces the wasted energy of their homes, their new 
homes. Now, you would think that this affordable, achievable 
proposal shouldn't be a very heavy lift, but the NAHB opposed 
each--well, all but one of its elements. And they opposed the 
comprehensive package. In fact, the only element they did 
support was one, which you have mandated, which has to do with 
CFLs.
    We need national leadership, and we hope that that 
leadership comes from the ICC. We strongly support the ICC 
process and are working within that process, but our national 
energy crisis is a matter of national energy policy. And it is 
also a matter of national environmental and climate policy. And 
that means that the ICC's action must be a subject for 
Congress, for the administration, for governors, for mayors, 
and policymakers.
    We are thrilled to see the DOE actively take a role in this 
process. We are thrilled to see the mayors and governors and 
others do the same. Many of you are looking at legislation that 
shares the goal of ICC leadership. It says we are looking to 
the ICC to lead, but at the same time sets efficiency targets 
for model codes to achieve.
    In addition, Congress has already made ASHRAE a mandatory 
requirement. You probably should think about doing the same 
thing with our national model energy code, the IECC. So we 
applaud your efforts, and we support Congress's active 
involvement in boosting the IECC's energy efficiency.
    I look forward to answering questions. Thank you very much, 
Mr. Chairman and Mr. Upton.
    [The prepared statement of Mr. Fay follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Boucher. Thank you, Mr. Fay. Mr. Heavner.

STATEMENT OF BRAD HEAVNER, STATE DIRECTOR, ENVIRONMENT MARYLAND

    Mr. Heavner. Good morning, Mr. Chairman and members of the 
committee. Thank you for the opportunity to testify and for 
your attention on this very important matter. My name is Brad 
Heavner. I am the State Director of Environment Maryland, a 
State partner of Environment America. Environment America is 
the new home of U.S. PIRG's environmental work. We are a 
federation of State-based citizen-funded environmental advocacy 
organizations.
    We are way past due in dealing with global warming, and we 
need to get to work immediately. My father was born in 1936. 
The family lived in a small brick house in Detroit with an oil 
furnace. The carbon dioxide emissions from that furnace in that 
year are still in the atmosphere today. CO<INF>2</INF> lasts in 
the atmosphere for at least 100 years. The emissions associated 
with cooling this building today will be a factor in the 
stability of the climate when my grandchildren are older than I 
am today. We need to get to work.
    We have come a long way in building efficiency since my 
father was born, but our buildings still pollute far too much. 
Despite advances in technology, the total amount of energy used 
by American buildings has increased 25 percent since 1990. But 
our greatest crisis is also our greatest opportunity. As peak 
oil forces changes in our economy, an economy that is very 
heavily dependent on cheap fuel, what will be the next growth 
industry? I believe it is this: energy efficiency and clean 
energy. And preventing wasted energy in buildings is probably 
the greatest opportunity of all clean energy opportunities.
    A report issued this past February by the McKinsey Global 
Institute found that by 2020, we could reduce annual energy 
consumption nationwide by 10 percent through cost effective 
building efficiency measures. These changes would reduce our 
annual global warming emissions by 962 million metric tons. 
That is about 14 percent of current total U.S. emissions.
    These reductions would also eliminate the need to build 
dozens of new power plants and thereby save us money. Building 
coal plants to produce the same amount of energy would cost us 
three times as much. Building nuclear plants would cost five 
times as much. So the big question is if there is all this 
potential for energy savings and it is cost effective, why 
isn't it more standard already?
    I don't think the answer to that is really all that 
complicated. The biggest hurdle is that the decisionmakers for 
how buildings get built are usually not the same people who 
benefit from reduced fuel consumption. Builders are primarily 
focused on the initial sale price of the house, and the ongoing 
operating costs of that house are not a big business factor for 
them. Homebuyers are rarely experts on energy-saving building 
techniques, so they take their advice from the builders.
    It is therefore essential that we set strong standards to 
protect consumers and the environment. Building codes should be 
based on up-to-date potential for energy savings. For existing 
buildings where you are usually unable to roll the costs into a 
long-term mortgage, financial incentives are key in addition to 
the creative financing mechanisms that allow homeowners to 
spread out the costs over time.
    Overall, zero-energy buildings should be the standard for 
all new buildings by 2030. Last year's energy bill made 
progress towards this goal, but there is much more to do. The 
first thing that Congress can do is to require building codes 
to be strengthened and enforced. National legislation should 
require the codes to be 30 percent more efficient by 2010 and 
50 percent more efficient by 2020. And it should ensure that 
all States require and enforce this level of energy efficiency 
in new buildings.
    We will have a chance to get a head start on this in 
September when officials from towns and cities across the 
country come together to adopt the Model Residential Energy 
Code. They will be voting on this 30% Solution, which would 
require new homes to be 30 percent more energy efficient. 
Officials need to hear from their elected leaders that they are 
depending on them to deliver a strong code that includes The 
30% Solution and that will give the support they need to 
enforce the codes once they are adopted.
    There are also a number of existing and newly created 
programs that are essential for high efficiency buildings. The 
energy tax credits set to expire the end of this year include 
tax deductions and bonds to help Americans construct buildings 
and retrofit buildings to waste less energy and to take 
advantage of solar power. These tax credits must be renewed.
    Congress has created the Energy Efficiency and Conservation 
Block Grant Program to assist local governments to promote high 
performance buildings, but Congress has yet to appropriate the 
$2 billion needed per year to fund that program.
    And finally for three decades, the Federal Government has 
been providing grants to State agencies for the Weatherization 
Assistance Program. Recently funding for this program has come 
into question, and it should be expanded not cut back and reach 
more homes to provide even greater energy efficiency 
improvements.
    My final thought is this: we need to adopt many policies to 
address global warming. Some will be easy, and some will be 
difficult. Some will save us money. Some will cost us money. 
Some will have a lot of secondary benefits. Some will be more 
limited. Policies to promote green buildings are among the most 
positive win-win policies available to us. We should be as 
aggressive as possible in the area of high efficiency 
buildings. We would be cheating ourselves if we didn't maximize 
the potential from energy efficiency buildings. Thank you very 
much.
    [The prepared statement of Mr. Heavner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Boucher. Thank you, Mr. Heavner, and thanks to each of 
the witnesses for your thoughtful testimony here this morning. 
I will begin my questions with Mr. McLean. For some time you 
have administered a very popular and highly successful Energy 
Star program for appliances. So successful, in fact, that I 
think the manufacturers of these appliances perceive a 
marketing advantage to having the Energy Star label affixed to 
their appliance.
    But we are not there yet when it comes to the Energy Star 
program for buildings. What are you doing to try to promote 
that program and achieve the level of acceptability for that 
and the level of recognition for it and the marketing advantage 
for that that exists for the appliances program today?
    Mr. McLean. Well, first of all, I would like to give credit 
to the Department of Energy for the appliance part of the 
program, but we work with DOE on the Energy Star program and 
divide up the products. And many of the home appliances are 
covered by the Department of Energy.
    What we have tried to do with the new homes program for 
Energy Star--and if you go back to when we started this 
program, we were trying to identify why what many people have 
talked about here today are clear economic advantages to 
promoting energy efficiency and why they were not being adopted 
and why they were not finding their way into homes and 
buildings.
    And we have sort of focused our program around those 
barriers or obstacles and designed our efforts to overcome 
those. Some of those are consumer information. Some of those 
are barriers between builders and homeowners, the different 
incentives that are in the system, and try to identify where 
the problems are. And sometimes they are at the federal level. 
A lot of times they are at the State and local level. A lot of 
times they are informational levels, and so we have designed 
and focused our programs around achieving those
    And what we have done, and it is sort of a beyond code 
area, the code is sort of the minimum, and then we have looked 
at what can we do beyond that, and how do we get people to 
participate and play. And I think you have seen here today some 
differences between maybe the homebuilders and the constraints 
they see and the advocates who want to go beyond it.
    And we have tried to move the ball along by encouraging 
people to go beyond code. And then over time, you can update 
that code because it has become a normal practice, but there is 
always a beyond code element that you can identify. And then 
you recognize the builders, and you recognize the operators of 
commercial buildings with the recognition for going beyond 
that. So that is the niche and the area that we have focused on 
and what we have tried to develop.
    Mr. Boucher. OK. All right, thank you. It has been asserted 
that one of the barriers to constructing energy efficiencies 
into new buildings is the fact that there is a long payback 
period before those initial investments are recovered in the 
energy savings year by year. And that payback period can be 5 
years or longer, meaning that people who oftentimes sell their 
homes within just a few years would not actually recover those 
up-front investments.
    Is there any evidence that you have seen that affixing the 
Energy Star for buildings to these new homes might enhance the 
resale value of the home so that even someone who sells the 
home before that break-even point is achieved could recover in 
the resale value of the home some of those upfront energy 
investments?
    Mr. McLean. I don't know if we have enough data because of 
the turnover of homes. There are a lot of cases where people 
only own their home for 3 to 5 years and where that could work. 
I would have to look into that and get back to you as to 
whether we have any data that would indicate that has been 
helpful. I mean we have looked at like the mortgage area of 
trying to fold that in to pay for these upfront costs, and we 
have also tried to make sure that the upfront costs aren't too 
large in the first place so that we can get as much advantage 
out of minimal cost increases. But we would need to get back 
and see whether we have data on that.
    Mr. Boucher. Well, if you have some information and can 
share it with us, that would be helpful. Mr. Fay, do you have a 
response to that? I also have some questions for you, but if 
you want to comment on that, that is fine.
    Mr. Fay. In my testimony, I referred to a NREL study, the 
National Renewable Engineering Lab study that took a look at 
what happened to--with homeowners that had 30 percent, 40 
percent, 50 percent, and 100 percent more energy efficient 
homes beyond the 2003 IECC. The interesting part about it was 
30 percent actually produced a positive cash flow to the 
homeowner beginning on the day that they move in of $512 a 
year. And that was calculated because they are presuming that 
the homebuyer is able to put the cost of that energy efficiency 
into their mortgage.
    And when you take a look at that additional mortgage cost, 
each $1,000 at 7 percent fixed 30-year mortgages, it adds $6.85 
a month. And when you take that across the year and then you 
take the interest deduction from it, the cost of that 
investment is $211 a year, but the benefit, the energy 
efficiency benefit that they get from utility bills is $723 a 
year. So you end up right off the bat with a homeowner that is 
recovering money from that investment. And even if they sell 
the house in 5 or 10 years, they have still had that positive 
cash flow. They haven't paid anything for the--they paid more 
at the beginning of the purchase price of the house, but that 
is--they have recovered it over the years.
    Mr. Boucher. Thank you. Let me ask you about a different 
area. You mentioned in your testimony your efforts in support 
of our section 431 last year, which would have presented to the 
States model building codes for their consideration. And some 
of the commentary we have heard today, both from members on 
this panel and also from some of the witnesses, suggests that 
we should not adopt a national one-size-fits-all approach, but 
that to the extent we do anything, we take into account 
regional climate variation and make sure that there is 
adaptability of some national standards to take those 
variations around the country into account.
    Could you describe how our section 431, as written last 
year, and as passed by the House but not in the final 
legislation, responded to that need?
    Mr. Fay. Well, not really. I am not as familiar with that 
provision of your legislation.
    Mr. Boucher. Let me ask if there are other members on the 
panel who would like to undertake that challenge. Mr. Rodgers, 
would you like to respond to that?
    Mr. Rodgers. Thank you, Mr. Chairman. I think it is 
critical to know that our research and development program, 
which was already documented that 30 percent improved energy 
efficiency homes are cost effective on day one for the 
homeowner and lower utilities bills are already designed to 
take into account regional and climactic differences across the 
United States.
    The code programs that we work on, the model building 
codes----
    Mr. Boucher. Well, my question was more directed to the 
provision that we adopted last year.
    Mr. Rodgers. Yes, sir.
    Mr. Boucher. And----
    Mr. Rodgers. And so that provision, my understanding is 
that provision replicates this emphasis on regional climatic 
differences that are already reflected in the way that model 
building codes are developed and how our analytical tools are 
providing that information already, sir.
    Mr. Boucher. And so I gather from that answer that had our 
provision been passed into law, regional variations in climate 
could have been taken into account as a national recommendation 
was considered and ultimately adopted State by State?
    Mr. Rodgers. Yes, sir. I think that was one of the beauties 
of the approach that reflects technology differences need to be 
fine-tuned to climatic differences within our country.
    Mr. Boucher. Right. Mr. Weiland, you represent the building 
code officials at the local level. Do you agree that our 
legislation was structured so as to take into account these 
regional climatic variations?
    Mr. Weiland. Let me just point out a little bit of a 
clarification. Currently right now the International Energy 
Conservation Code, which several people have referenced, is 
already adopted in 31 States nationwide. And I want to go back 
to a comment I made earlier in that I think maybe more--there 
is more of an enforcement concern, a compliance concern or 
issue that we need to address. And that was one of the things 
that we were trying to address through our legislation that the 
House did pass last week, that building departments are 
strapped.
    They don't have either enough people or enough well trained 
people to go out and enforce the existing energy conservation 
mechanisms that are there. And I can't comment in detail on the 
specific piece of legislation that you----
    Mr. Boucher. Well, my time has expired. Thank you very 
much. The gentleman from Michigan, Mr. Upton.
    Mr. Upton. Thank you, Mr. Chairman. I appreciate everyone's 
testimony this morning. That is for sure. And I would like to 
just underscore a couple things, and I have some questions at 
the end.
    As many of you know, our electric needs are expected to 
grow 30 to 40 percent by the year 2030. And already this year, 
we have seen natural gas prices go up by more than 50 percent, 
which will be reflected in consumers' bills at some point as 
they need cooling or heating. And we have seen coal prices 
increase by 100 percent.
    In fact, Mr. Shimkus the other day talked about a closed 
coal mining operation in southern Illinois, which is now 
opened, reopened because of these costs. USA Today highlighted 
that on the front page--and I wish I had brought it down--this 
morning in terms of alerting the Nation's public about this.
    But today's Wall Street Journal I don't know if you saw 
this today, but on the front page, it talks about on a hot day 
in May back in Texas--I can hardly wait to bring this up with 
my good friend Mr. Barton and others--wholesale prices rose 
briefly to more than $4 a kilowatt hour in Texas. It obviously 
is reflected in people's view. And I was one, along with the 
chairman, that voted for both the '05 and the '07 bill, 
thinking that they--knowing that they were taking a step in the 
right direction. And I think many of you know that Jane Harman 
and I authored the legislation which was part of the '07 bill 
which sought significant savings because of light bulbs.
    And I would note that Phillips came in to see me. I wish 
Mr. Burgess was here. He is now coming in the door. But they 
have now developed the lights that will meet that standard 
already, the 2012 standard, and they are doing it without lead, 
without mercury, significant energy savings. And in fact, 
production is being done in this country versus overseas. I 
thought that was terrific news.
    Mr. Belcher, you talk about a number of incentives that we 
need to renew. Solar and wind are part of that, which, of 
course, expired the end of last year, but there is a whole 
other series that you talked about. And you are right on the 
mark with that regard.
    Mr. Rodgers, I can remember when Secretary Bodman made his 
first appearance before this subcommittee. Maybe it was the 
full committee hearing, and I believe it was Mr. Markey that 
really lamented him because of the energy appliance standards 
that were still on the shelf that had not been done for, I want 
to say more than 10 years. So I am a big supporter of those 
Energy Star. I am glad that they are done, and great credit to 
the administration for getting that done.
    Mr. McLean, you talked about six priorities for EPA, and 
like I saw low-hanging fruit on light bulbs, one of the things 
that I really see that we have not done is to help the 
utilities by increasing the depreciation so that there are 
incentives for using electricity in the off hours. So that you 
can run your washing machine or your dishwasher at night after 
most folks return home from work. And yet, I think that was 
proposed though in the '07 bill that was dropped somewhere 
along the line. But I just can't see that. Those lights are 
right in my eye.
    I would be interested to know if there is any objection 
from any of you here at the table to try and give the 
incentives to the utility industry to, in fact, install those 
new meters, relatively new--I think they are used in Europe--to 
encourage folks to use electricity in off--and that ought to be 
highlighted in terms of what we can do, not only for 
residential but for commercial. Does anyone have any objection 
to that? Mr. McLean, no objection? I just want to make sure I 
get my last question.
    Mr. McLean. I wouldn't object, but I would say one of the 
things we are concerned about as those things are done is that 
consumers also see that information so that they can react. So 
it helps utilities manage their supply, and it helps 
consumers----
    Mr. Upton. And if they get $4 per kilowatt.
    Mr. McLean. Right.
    Mr. Upton. Now, is there some way that consumers are going 
to know that, right now at 11:30 it is $4 per kilowatt and they 
better turn everything off?
    Mr. McLean. Well, those things are becoming more possible. 
The information technology is moving so fast that I think we 
can supply consumers with more information as we implement the 
things you are suggesting.
    Mr. Upton. Mr. Weiland, my last question, as my time is 
coming down, is you represent the International Code Council. 
Knowing that we have done a lot in the country--thank goodness 
but maybe not enough, but whether it be light bulbs or 
obviously efficiency standards on appliances, all those 
different things, where do we stack up internationally to what 
other countries have done or not done particularly as I think 
about the EU and what they have done with their--where are we 
stacking up in terms of actual regulations on the books, seeing 
positive changes in the right direction to reduce electricity 
needs for the different devices that we all use?
    Mr. Weiland. Well, if it is any indication in terms of 
the--I guess the growth within our industry internationally, 
and the demands now upon our organization to work with other 
countries, primarily the focus has been on--more on the safe--
building safety and fire safety side, not on the energy side. 
But this organization, the International Code Council really 
has, in my opinion, developed probably the safest building 
safety system in the world. I think it is second to none.
    Where we stack up in the energy side, I think that is 
something we need to drill down and take a look at. I don't 
really have a great answer for you, but I can get you one.
    Mr. Upton. Does anyone here have a comment as it relates to 
that? Mr. Fay?
    Mr. Fay. I do. The IECC, for the last 20 years, has stayed 
rather--it has had, at best, modest gains. That seems rather 
astonishing, particularly with the energy situation we are 
facing here. And I think one of the questions is, where fire 
and safety fit in with the ICC process and where energy fits 
in. Our contention is that, first of all, fire and safety is 
always going to be the most important thing that the IECC does. 
We know that, but we also think that energy is elevated as a 
national priority, maybe not to the level of fire and safety, 
but very close to that.
    I think there was a tremendous step forward made by the 
IECC Development Committee meeting in Palm Springs in February. 
They took the first stab at what will be culminated in the 
hearings in, final hearings in Minneapolis in September. And 
that Development Committee got, we think, about halfway to the 
30 percent boost in energy efficiency that we are seeking. DOE, 
I think, estimates that it is somewhere between 17 and 22%. 
That is rather historic for energy and the IECC.
    So I am going to give them some kudos here because the 
Development Committee did take a large step toward energy 
efficiency. I think the recognition was there. Now, keep in 
mind that in February, look at what our prices were for energy 
compared to today. There is a compelling need for the ICC in 
September to really go the next step and adopt the 30 percent 
that DOE and governors and mayors and others have set for us.
    Mr. Upton. Thank you. I know my time has expired.
    Mr. Boucher. Thank you, Mr. Upton. The gentlelady from 
California, Ms. Matsui, is recognized for 5 minutes.
    Ms. Matsui. Thank you very much, Mr. Chairman. I find it 
really very interesting to listen to all of you here because I 
think we all are agreed on the fact that we need to be more 
energy efficient, and we can do it. It is how we do it, and we 
have various standards and codes in order to try to get us 
there.
    I feel much of this is within the education process too in 
that, for instance, the people who buy homes may not understand 
that maybe it is more expensive if you get--when you first buy 
it, it will be more expensive to have an energy efficient home. 
But over the course of the loan, it manages to work itself out.
    I am also looking at aspects of where we are as far as 
energy costs as Mr. Upton was talking about--my municipal 
utility came in to see me regarding off time usage and how 
important that would be, particularly as we are moving forward 
and they are moving forward with some other plug-in type 
vehicles and all that.
    I am wondering whether it is possible to have some sort of 
hourly focus, whether part of it is in the utilities area, 
about the cost savings as far as off use. And I think you were 
talking about the meters and things of that nature, what the 
cost effectiveness of that would be. And also in the financial 
aspects of it, the mortgages, and obviously we are talking 
about mortgages today. And it is probably not the best thing to 
talk about in this climate; however, looking at how we 
structure some of these mortgages and to really build in some 
of that cost effectiveness into that also.
    I am also interested in, Mr. Heavner, about what you see 
moving forward as you listen to all of this, where you would 
like to see us focus more, realizing you brought up the history 
of your father and what we would like to do. Realizing 
realistically that what we can do in the short term--I am 
saying short ter--the next 3 to 5 years. What are the best 
things we can do because I always feel the public is very 
impatient, and they want to see progress? And whether we see it 
in our bills that we get from utilities or cost of our homes or 
whatever, what do you see that we can do that is going to be 
environmentally sensitive in looking at climate change that we 
can be doing in the next 3 to 5 years? Looking at all these 
aspects that we have before us here.
    Mr. Heavner. I think by far the most important thing is 
that model codes be adopted and enforced by all states. Thirty-
one states is good. It is not 50 states. It is not good enough. 
And those codes are not enforced well enough, and I think that 
any assurance that a State is doing its job needs to include 
assurance that there is at least 90 percent compliance in 
actual homes built to the standards. They will need assistance 
for that, and I think it is a very good use of federal funding 
that may become available to deal with energy security and to 
deal with global warming to assist local officials in the 
enforcement. People will see this in reduced energy bills.
    With regard to retrofits, direct assistance to homeowners 
is essential. And I think the single most important thing for 
Congress to do this year is to extend those tax credits. And it 
would be a shame, and a lot of jobs are dependent on this and a 
lot of people's financial stability dependent on this. It would 
be a shame not to have that happen by the end of this year.
    In addition, there are things that we can do to spread out 
the financing of home retrofits and efficient appliances, 
allowing the homeowners to roll that into their utility bills. 
If they are able to purchase an efficient appliance or do an 
upgrade and pay that back over time with the utility bill, they 
are saving money from day one, and they will--they can build in 
a margin for utilities to make a profit.
    Ms. Matsui. Much like you do as far as when we get a new 
furnace or something like that. You are thinking about the home 
itself that you are fitting and putting that in.
    Mr. Heavner. Yes, and consumers would see that immediately. 
You know it would be an opportunity for them to make an upgrade 
and lower their utility bills. A requirement that utilities 
make this available to consumers across the country would have 
an enormous impact on the amount of retrofits that happen.
    Ms. Matsui. Thank you, and I just want to ask a question of 
Mr. Belcher from the homebuilders. I understand that you 
probably would not like to have a uniform code across the 
Nation. I can understand that too because I think there should 
be some flexibility built into this. How would you feel about 
having a driver though as far as the building codes if, in 
fact, there can be some flexibility built into it? And also 
whether we can--we need to have compliance. We need to have 
some sort of enforcement moving forward, and most of the 
people, looking at the homebuilders in order to--that is the 
first thing that most homeowners think about too.
    Mr. Belcher. Right. Well, first of all, start with the 
basics. As far as building codes in general go, we as builders 
need building codes. If nothing else, they level the playing 
field for all of us, and they set the bar. It is a minimum 
standard of course, and we have a great relationship working 
with IECC. I have been certified in the past, of course, as a 
building official. And to address some of the drivers, as you 
have suggested, there are some very good programs that are out 
there right now, programs that we are using, the National Green 
Building Standard that is about to be launched.
    We are using a voluntary standard that that is based off of 
Energy Star programs out there. And those programs will 
accomplish what we are trying to do. They just need the 
incentives to get them out there. Consumers don't understand 
them.
    And a personal experience if you will. The customers that 
come to me, either if I have a home that has been built or to 
build for them, a custom home if you will, price is their most 
sensitive point. And all of you that have bought a home 
probably had the same experience. The bottom line is still the 
bottom line.
    What we try to do in managing not only energy efficiency 
but as a green builder, we are looking at all the resources, 
water efficiency, resource efficiency because as a second 
generation builder, I want generations beyond me to be able to 
keep on providing housing for our growing population. So we 
have to consider all those, and most consumers have items that 
they wish to have in their homes, particular countertops or 
whatever types of finishes.
    What we do is work with them, get the desires they want in 
that house, get their budget, and then make that house as 
energy efficient and resource efficient as possible to stay in 
their price point.
    And if I may, from a resale standpoint, it is true the 
majority, I think, of homes are transferred 5 or 10 years to 
another consumer. And just now are the markets starting to 
realize the additional value these homes have. The problem is 
the appraisers, if they don't understand the value these homes 
have, you are not going to be able to have that home appraised 
higher.
    Ms. Matsui. Well, could I just say this? I think that as we 
purchase our cars, we are looking at how much savings can we 
get, what is the mileage. It might be possible to look at homes 
itself to see where the cost savings would be too. I think we 
do that with some of the furnaces and things like that. But we 
might want to look at the totality of the home----
    Mr. Belcher. That is correct.
    Ms. Matsui [continuing]. To see where the savings would be 
so----
    Mr. Belcher. And that is where the--like the National Green 
Building Standard, it gives you some quantifiable information 
as to how that home is built. It is flexible standards, so it 
does take into account the different climates of the country. 
And it will allow you the flexibility to work into your 
homeowner's budget. But then to have that quantifiable 
information----
    Ms. Matsui. Right.
    Mr. Belcher [continuing]. For appraisers to use to put 
value on that home, and then consumers and mortgage lenders 
will have something quantifiable to make that deal work.
    Mr. Boucher. Thank you very much.
    Ms. Matsui. Thank you very much.
    Mr. Boucher. The gentleman from Arizona, Mr. Shadegg, is 
recognized for 5 minutes.
    Mr. Shadegg. Thank you, Mr. Chairman, and I want to thank 
all of our panelists. I appreciate the information, and I 
always learn when I come to these hearings.
    Mr. Heavner, I fervently agree with you about the 
importance of renewing the solar energy tax credits. I voted 
for those in the past and voted to extend them. Regrettably, 
this year each time they have come up to be voted upon, they 
have been added to dramatic tax increases, making it very 
difficult for some of us and giving us no clean shot. That is, 
we can't vote to just renew the solar tax credit. I hope that 
will change in the near future. We will get a straight up or 
down vote or an up or down vote tied to some other policy 
rather than a tax increase, which some of us find 
objectionable.
    I want to make a comment. I guess a lot of this discussion 
is carrot-and-stick. Stick is a building code to a certain 
degree. Carrot is an incentive. I am interested in using both 
strategies.
    I am a little worried about, or a little concerned that 
with regard to some of the building codes at least some 
organizations out there have an agenda other than energy 
efficiency. That is to say they want to impose a green building 
code that works on not cutting down trees or that works on some 
other issue.
    That isn't what I hope the American people will become 
agitated about because some people may say look, I want energy 
efficiency. That makes sense to me, but I don't want to buy 
into somebody else's agenda that is secondary. Some other 
people might say look, I like the secondary agenda. I don't 
want to cut down trees so that is OK with me.
    But I hope people don't get fooled because I think it is 
important when we do building codes that are about energy 
efficiency that they get information about energy efficiency. 
Then they can make an informed decision. If they want to also 
achieve some other goal, that is good.
    Then that takes me to kind of my passion, which is carrots, 
not sticks. I was fascinated, Mr. Belcher, by your comments and 
a little bit, Mr. Gentry, by yours about the degree to which 
new homes are a part of the problem versus the degree to which 
old homes are a part of the problem.
    My wife and I bought a subdivision home 15, 20 years ago. 
Lived in it for a long time. Fortunately, we were able to buy a 
lot and build a home of our own about 4 years ago. It is a 
bigger home, and yet when our energy bills started to come in, 
they are lower than our old home.
    Now, in part that is because when I built this home--I live 
in Phoenix, Arizona. I don't worry about the winter, but I 
worry a lot about the summer. You know I put in a lot of 
insulation that I was not required to put in and did a number 
of things that I was not required to do, various techniques 
which I would be happy to describe to you because I wanted to 
bring down the operating cost of my home.
    The question that occurs to me is talking about national 
policies. I think a lot of policies should be dictated at the 
local level, and maybe the idea I am about to give you could be 
done at the local level. But it could also be done at the 
national level, and I want to ask anyone on the panel, but 
particularly Mr. Belcher and Mr. Gentry, has anybody talked 
about either extending a tax credit or a deduction for an 
energy audit?
    And I think my new home is much more efficient than my old 
home because it is slightly larger in square footage, but the 
cost of running it is less. But I will bet you there are 
inefficiencies still in it, and I would like to go out and have 
it audited, have somebody come in and say, well, look, you got 
a leak here under this door or you got this or that. And it 
seems to me that you could do that for old homes.
    And it seems to me you could also perhaps do that for new 
homes. You could say to a homeowner that was going to buy a new 
home that was already built, somebody gets a tax credit, the 
builder or you get a tax credit or the builder or you get a tax 
deduction if that home is reviewed and you get a report showing 
how efficient it is or how inefficient it is. Those are both 
federal tax code issues.
    Obviously we as a Nation have a stake in not wasting 
energy, and I guess I would be interested in your comments on 
those ideas.
    Mr. Belcher. Well, I can give a great example of Kansas 
City, Missouri just last week relaunched their green building 
program. As part of the incentive, and utilities were mentioned 
before, their local electrical utility is helping to subsidize 
the cost of energy audits, both old and in new construction. So 
that helps that process get off the ground.
    Our local utility in St. Louis, our gas utility, their 
alternative engineering group are the ones that are our third-
party verifiers because they understand how the building 
functions. And it is important to remember when we are--as the 
technology of these building increase, there are systems that 
are made up of a lot of smaller systems. And you need to 
understand how they function, and just going in and building a 
tighter envelope--this happened when I was a code official back 
in the early '90s is the energy code started requiring tighter 
construction.
    It overlooked the fact that people lived in those homes and 
had an effect that way. So, one of the three criteria of the 
building code, health, safety, and welfare. Well, welfare is a 
very important part of that triumvirate too so attention needs 
to be paid to the effect. We can't be hasty and confuse that 
with necessity.
    Mr. Shadegg. Anybody talking about a deduction or tax 
credit for energy audit, Mr. Gentry?
    Mr. Gentry. I am fairly new to the State of North Carolina, 
but we are getting started on a couple of projects down there. 
And the client we are working with is an organization that does 
affordable housing, and it is my understanding from my client 
that the State of North Carolina actually has programs in place 
to pay for energy audits and actually guarantee maximum--if you 
get a successful energy audit, then the State will--this 
program provides a guarantee to the homebuyer that utilities 
will not exceed a certain amount for--I can't remember whether 
it is a 3- or 5-year period.
    So one of my thoughts is that you really don't need the tax 
credits because the project we did in Chicago was an excellent 
example of how you can make it work in the marketplace. What we 
did is again we were doing affordable housing, and the city of 
Chicago offers lots for a dollar if you can build a house, an 
affordable home, for $195,000. That is what it is capped at. 
And as you might guess, when you build a house for $195,000 in 
Chicago, you are doing bare bones minimum in terms of 
insulation and mechanical systems and everything else.
    And we went to the city and demonstrated some simulations 
that we could shift monthly expenditures for utility bills 
towards the mortgage enough so that it was zero change in the 
monthly expenditures for the homebuyer so he could qualify that 
we could raise the cost of the house and sale price the house 
up to $295,000. We increased it by $100,000, and the city 
agreed with that and allowed us to do it.
    And the advantage of that is that it gives the future 
homebuyer, it makes the house more affordable on multiple 
levels, three levels. As utility rates go up, the house remains 
more affordable than a conventionally built affordable home. 
They get to put more money into the mortgage rather than the 
utility bills so when they sell the house, they have greater 
economic mobility. And income tax credits, of course, work to 
their advantage.
    Mr. Shadegg. Anybody else want to comment quickly on either 
energy audits or incentives? Mr. Rodgers.
    Mr. Rodgers. Yes, sir, I think you have clearly identified 
a critical issue. If we give consumers the proper information 
about the energy performance of their home as represented by 
scale display, they can make an informed decision. And then 
they can share it with a builder, the remodeler, the utility, a 
way of translating those cost savings into a better building. I 
think you are on to something.
    Mr. Shadegg. Mr. McLean.
    Mr. McLean. Just one thing to add. We found that there are 
several pieces of information a consumer needs, and having been 
one trying to do my own home, it is very hard to find someone 
who can talk this language and fix your house. So the audit is 
the first step, but then they have to be able to know where to 
go for a credible contractor who understands and can implement 
those recommendations.
    Mr. Shadegg. OK, thank you.
    Mr. McLean. So we are starting to see this as a package of 
issues that the consumer needs in order to go all the way to 
realize the energy efficiency.
    Mr. Shadegg. Well, I would be anxious to work with anybody 
on that issue, and if there is a role for federal legislation, 
be willing to get involved and help.
    Mr. Boucher. Thank you very much, Mr. Shadegg. The 
gentleman from Washington State, Mr. Inslee, is recognized for 
5 minutes.
    Mr. Inslee. Thank you. I want to thank the chairman for 
holding this hearing. As usual, he is right on the money, and I 
would like to insert in the record a letter dated July 17, 2008 
from the U.S. Green Building Council that also thanks the 
chairman. I can submit that for the record.
    [The information appears at the conclusion of the hearing.]
    This letter reminded me of the McKinsey report that looked 
at the cost of all the things we can do to solve our multiple 
energy challenges. And way over on the left is this huge bar 
going down showing the negative costs, the cost savings of 
energy efficiency. And it is just astounding because it is as 
tall going down saving Americans money as any of the bars going 
up to deal with anything else we have to do. It really is an 
eye-catcher.
    And moving on these building codes is absolutely a 
necessity. We will be introducing a bill here shortly with sort 
of what we call our no-brainer actions, this being one of them 
to again pass in the House, we hope, this improvement in our 
national energy codes. And we hope to move that through the 
House.
    I just want to ask a question about again the necessity. 
The bill we will be introducing does not have any particular 
sanction from local States or communities that would not follow 
the federal requirement, no identified sanction in any event.
    I would just like to ask the panel, assuming we do pass 
this, and it does create a federal statute, a federal legal 
requirement that, in fact, the building codes be updated with 
30 percent by 2010 and 50 percent by 2020. What would be the 
reaction of States and ultimately other jurisdictions without 
some particular sanction of loss of federal funding? Will these 
States go to their attorney generals and their, you know, 
mayors and ask do we have to do this? And will they be told it 
is federal law? And will they then act, or will they say well, 
there is no particular identified sanction, therefore let us 
just ignore those funny people in Washington D.C. and continue 
on our merry way?
    I would ask for anyone's sort of description of a 
prediction in that regard if any would like to venture an idea. 
I certainly believe this is worth doing even without a sanction 
as a statement at a very, very minimum to move and give a 
reason for those who advocate for action on a local level to 
say the Federal Government--this is a legal binding 
requirement. And giving them that armor or weapon, if you will, 
to get their State to move makes sense. Mr. Belcher, you wanted 
to say something?
    Mr. Belcher. Yes, I just actually had a thought as you were 
talking about that. The State of Missouri, the populated area, 
St. Louis metropolitan area, Kansas City, Springfield, parts of 
the State or classes of county that have building code 
enforcement, they have enough population to justify, have the 
enforcement staff to do so.
    But in outstate Missouri, which is a huge population, the 
State has not done anything to this point. It is almost 
impractical economically to try to enforce in the outstate, and 
frankly they have had a lot of pushback when building codes and 
things like that are trying to be imposed in outstate Missouri.
    And as an aggregate, the population is probably about equal 
to the populated areas of this State. They are just scattered 
out obviously.
    Mr. Inslee. Well, would passage of this bill again by the 
House, if it became law, that did create a federal requirement 
for updating these codes, would that make it at least somewhat 
more likely that folks in Missouri would move towards a more 
robust energy code in your view?
    Mr. Belcher. Well, it is possible, but again it gets back 
to the State and some of these municipalities saying we just 
don't have the money to comply with this, and they will bog it 
down in the process. And again, you know, we do have processes 
out there that are being adopted around the State such as the 
Green Building Standard and Energy Star. They are accomplishing 
these goals. They just need to be promoted.
    Mr. Inslee. Mr. Rodgers?
    Mr. Rodgers. Thank you, Mr. Inslee. I think it is important 
to understand, as Mr. Belcher is saying, that our State and 
local officials have a lot of work to do, and one of the things 
that they probably don't have time to do is write building 
codes from scratch. So the advantage of the proposed 
legislation is that it creates an incentive for the model 
building code to be updated regularly with sound, cost-
effective technology. I mean it is my personal opinion that if 
we deliver a more efficient building code, provided through our 
proven consensus development process, that it will make it 
easier for our State and local officials to adopt a more 
efficient code.
    Mr. Inslee. Does anyone see any reason to wait to do this 
next year? You know we are going to have some more action next 
year on cap-and-trade and other things. But is there any reason 
not to do this this year?
    Mr. Heavner. I think it is essential to do this as soon as 
possible, and I agree there really needs to be sanctions in 
addition to incentive. There needs to be incentives and 
sanctions, incentives to help with the implementation.
    I think part of the reason why a lot of local jurisdictions 
in States don't do this is because it is a lot of work, and 
they feel like they can't get to it. So giving the carrot to 
say we will help you do that if you adopt this, but also with 
sanctions it is a question of national interest that we have to 
use less energy across this country. It makes perfect sense for 
Congress to have sanctions if States don't follow the national 
model code.
    Mr. Inslee. Yes, I may note, we have a lot of argument 
about offshore drilling, but I will bet you there is five times 
more energy in this subject we are talking about today that we 
can get for Americans at zero cost, at net zero cost. I wish we 
had more attention to this issue. Mr. Fay, you want to make a 
comment, and then I will yield.
    Mr. Fay. Mr. Chairman and Mr. Inslee, I just wanted to 
point out that, as courts have held, it is the duty of the 
builders to meet these building codes. These are minimum 
building codes, and because the codes have a minimum standard 
of care in State laws, the noncompliance of those codes is a 
bigger issue, I think, for builders than it is even for code 
officials.
    I think it is very important that we understand that the 
model code we are pushing does not automatically mandate 
anything. It has to be adopted then by the States, but once 
adopted, it is up to the builders to comply with that. And I 
think that is a very important distinction.
    In addition to that though, nearly all of the members of 
the Energy Efficient Codes Coalition are dedicated to working 
beyond just the model codes to ensure that--to work with State 
and local levels to make sure that the funding is there and 
with Congress, funding is there to provide the training that is 
necessary for inspectors and for enforcement. And I think that 
is really important.
    But I do think it is very important that we come back to 
the fact that this is an important issue for the builders to 
meet.
    Mr. Inslee. Yes, I just want to insert the discussion of 
what we are talking about today, which is the beauty and cost 
effectiveness of megawatts. So I would yield back.
    Mr. Boucher. Thank you, Mr. Inslee. The gentleman from 
Oregon, Mr. Walden, is recognized for 5 minutes.
    Mr. Walden. Thank you very much, Mr. Chairman. Appreciate 
this hearing. I was also down in the one on Telecommunications 
and the Internet, on privacy on the Internet. So I apologize 
for not being here for your testimony, but I am aware of it.
    Mr. Rodgers, I want to ask you a question that perplexed me 
for a while. I rushed out and bought these fluorescent light 
bulbs and put them in. And they all say they are going to last 
eight or nine years. Is anybody looking at the fact they don't? 
I have had to deal with so many replacements, and I wonder is 
anybody at the Department of Energy actually looking at those 
claims? I am serious. My incandescent bulbs last much longer, 
and I don't understand why. Maybe it is just me, but I don't 
think it is.
    Mr. Rodgers. Yes, sir. I appreciate that question, and that 
is one of the critical components of the Energy Star 
certification program. Any manufacturer that applies for and 
receives the Energy Star certification for compact fluorescent 
light bulbs has to submit the product for certification testing 
including durability testing. And so I very much hope and I 
would like to know if you have an Energy Star certified product 
that did not last----
    Mr. Walden. Yes.
    Mr. Rodgers [continuing]. The stated time, we need to know 
about that.
    Mr. Walden. Well, I just told you, and I bet I am not 
alone. Anybody here had this same problem? I am serious, and I 
love the idea I am cutting my energy costs by a quarter. But I 
am paying through the nose, and if you think I am keeping those 
receipts from wherever I am buying this and that I am going to 
monkey around to go back and take that light bulb back and then 
argue with somebody about it. So I raise that because I have 
had it happen here in Washington D.C. in my house. I have had 
it happen in Oregon in my house, indoor and outdoor 
fluorescents. I have had them both. Some of them seem to work 
forever, but some of them just go out in a matter of a few 
weeks.
    So I would encourage the Department of Energy, since we are 
all out there telling people to do this and you have wonderful 
signs up and we are all saying this is a great thing to do, I 
got to tell you I have invested enough in those puppies that I 
could have bought incandescent lights forever I think. But 
clearly I am a fan, but I just want to make sure that consumers 
aren't getting ripped off on that.
    Mr. Belcher, on this building code issue, do you think what 
you are hearing here today and what you are looking at as a 
homebuilder is going to give the regional flexibility that is 
necessary?
    Mr. Belcher. I think that is still in question. I think the 
issue is being regional. Again I refer back to the National 
Green Building guidelines and upcoming standard which 
specifically addresses region. The residential code addresses 
some building issues on a regional basis, but there is a lot of 
technology involved in putting these homes together, especially 
as they are growing more and more energy efficient all the 
time.
    Mr. Walden. We had a situation in my home community of Hood 
River, Oregon that I am going to say 30 years ago now, that 
they came in and tried to do this retrofitting of existing 
homes to achieve as much energy conservation as possible 
through the Bonneville Power Administration. And if you look 
around my hometown, all these homes built in the '40s, '50s, 
'60s, whatever, have the dual panel windows. They have 12 feet 
of insulation in the attic. And the one thing they ran into in 
the end was they sealed them so tight that airflow problems, 
humidity problems, I mean water problems inside and radon 
problems. And I assume we have learned from that that you can 
go too far too and that you are dealing with that in the code.
    Mr. Belcher. Well, that is precisely the point I was 
speaking to earlier. Even in this generation of homes, 20 or so 
years ago, as we required homes to be tighter, we weren't 
thinking of some of those issues----
    Mr. Walden. Right.
    Mr. Belcher [continuing]. Until in the '90s we had mold and 
respiratory issues and so on. Now the trend with more building 
science involved is taking all those issues into account. And 
again just like in your existing program, if you want to take 
the biggest swing and hit the biggest ball out of the yard with 
energy conservation, it is all the existing homes and 
addressing how we retrofit. And don't just say go make your 
house tighter, but educate consumers on how to do that.
    Mr. Walden. And let me go to Mr. Rodgers perhaps for the 
Department of Energy. Is there a one-stop shop on your Web site 
or somewhere that people can go? And I know Mr. Shadegg raised 
the issues about incentives for energy audits, which I think 
makes sense. And it seems to me there are consumers who frankly 
right now with the price of gasoline, diesel, natural gas going 
up 35, 40 percent they think in Oregon for residential heating 
next year, are going to be strapped to go invest. And yet that 
is a great investment long term, but short-term cash flow is 
probably an issue. So incentives and access to----
    Mr. Rodgers. Yes, sir, I appreciate that very much. I would 
offer two one-stop shops. Energysavers.gov has the best 
collection of energy saving tips that consumers can apply and 
save energy right now in the homes and vehicles.
    Mr. Walden. OK.
    Mr. Rodgers. And then our joint website, energystar.gov, 
has access to all the Energy Star products and including home 
performance with Energy Star contractors who have the tools to 
come into an existing home and help you remodel that home for 
more energy efficiency.
    Mr. Walden. And are there incentives in--I am sorry. Sir, 
if I can ask just one more--incentives in place for residential 
consumers to install solar, federal incentives?
    Mr. Rodgers. Yes, sir, and there are many utility 
incentives and State incentives, and I will submit for the 
record a Web site that we have that documents all of those 
incentives.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. Great, because Oregon has had a very aggressive 
business incentive program for solar and renewable energy that 
has worked quite well. And I know everybody is kind of looking 
OK, what do we do in the residential site. Thank you, Mr. 
Chairman, for your indulgence on the time. And I want to thank 
the panel for their testimony.
    Mr. Boucher. Thank you very much, Mr. Walden. Without 
objection, a letter that is addressed to our colleague Mr. 
Rogers from the Flat Glass Association of North America will be 
admitted into the record. And the record will remain open for a 
reasonable period of time so that additional questions can be 
propounded in writing by members of the panel to our witnesses 
today. And when you receive those inquiries, your expeditious 
response to them would be appreciated.
    I want to thank each of our witnesses for the time you have 
spent with us this morning, for your well-prepared testimony. I 
think each of us has learned extensively from the comments that 
you have provided, and we are most appreciative to you for the 
time that you have spent with us.
    Having heard from all of the members on the panel and our 
witnesses, this hearing is adjourned.
    [Whereupon, at 11:58 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                   STATEMENT OF HON. JOHN D. DINGELL

    Mr. Chairman, thank you for convening this hearing on the 
important issue of how we can improve the energy efficiency of 
our buildings, to limit greenhouse gas emissions that are 
causing climate change.
    Few subjects related to energy efficiency have consumed 
more time and political energy than the subject of vehicle fuel 
economy. Yet our national fleet of buildings consumes 38 
percent more energy on an annual basis than does our national 
fleet of cars, trucks, and airplanes.
    In the first session of this Congress, the Energy 
Independence and Security Act of 2007 included a provision that 
mandated a 40 percent improvement in the fuel economy of 
automobiles and light trucks, a provision that had my full 
attention and that of many other Members. At the same time, a 
provision to provide for a 30 percent improvement in the 
minimum energy efficiency of new homes was unceremoniously 
dropped in the Senate after passing twice in this body.
    Unlike motor vehicles, new technology is not an issue in 
the building sector; the experts tell us--and will tell us 
again today--that technologies are available today that could 
double the energy efficiency of our buildings without shrinking 
them, making them less safe, or making them less able 
functional.
    A car put into service this year might remain in the 
automobile fleet for an average of about 12 years, on until 
2020. But a new home or commercial building put into service 
this year will remain in use for more than a century.
    Improving the energy efficiency of our buildings may prove 
to be a larger, more urgent, and much better opportunity to 
reduce energy consumption and related greenhouse gas emissions. 
It is an opportunity that deserves greater and more urgent 
attention from this Congress and from all Americans. I look 
forward to this hearing, and to learning from this fine group 
of witnesses what we can and should do to address this 
important issue.
                              ----------                              


                   STATEMENT OF HON. MARSHA BLACKBURN

    Mr. Chairman:
    I want to thank you for holding this hearing, and I want to 
thank the witnesses for taking their time to come and testify 
before this committee.
    Energy efficiency measures are often a low-cost method to 
stabilize energy demands while providing a cost benefit to 
homeowners and commercial building operators.
    But energy efficiency measures should not be mandated.
    They should be decided by the free market.
    Last year's energy bill was an example of how not to 
approach this issue.
    It imposed numerous energy efficiency mandates.
    It required more use of ethanol, driving food prices up.
    It prevents the Air Force from using alternative fuels, 
making our military more dependent upon foreign sources of oil.
    And it banned the incandescent light bulb and requires 
everyone to replace it with a dangerous mercury-filled compact 
fluorescent lamp.
    All done in the name of the global warming religion.
    Mr. Chairman,
    Energy efficiency is a laudable goal, but it can only go so 
far.
    Mandates are not the answer. New supply is the answer.
    And I have yet to hear from the other side regarding a 
rational energy policy that encourages new energy supply for 
the United States.
    Americans all across the country are demanding Congress to 
allow more exploration and production of American sources of 
energy.
    They want to drill here, drill now, and pay less.
    I hope my colleagues are listening to their constituents on 
this critical issue.
    I yield the balance of my time.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
